<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                        AGENCIES APPROPRIATIONS

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:45 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Craig, Harkin, Kohl, Murray, and 
Landrieu.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. MARGARET SPELLINGS, SECRETARY
ACCOMPANIED BY: THOMAS SKELLY, DIRECTOR, BUDGET SERVICE


               OPENING STATEMENT OF SENATOR ARLEN SPECTER


    Senator Specter. Good morning Ladies, and Gentlemen, the 
subcommittee on Labor, Health and Human Services, and Education 
will now proceed with our hearing on the budget from the 
Department of Education. I regret our delayed start, but we 
just finished a vote on the PATRIOT Act, and Senator Harkin was 
on the floor and should be here I think, shortly. Scheduling 
has been complicated because of this vote. As you know we had 
moved the time from 9:30 to 11:00 and then back to 10:30 and we 
don't like to keep people waiting, especially the Secretary of 
Education. But we welcome you here, Madam Secretary.
    You were confirmed on January 20, 2005. You have extensive 
experience working for the President when he had been a 
Governor; you were Assistant to the Secretary for Domestic 
Policy. You were Senior Advisor to then Governor Bush with 
responsibilities for developing and implementing the Governor's 
education policy. You are a graduate of the University of 
Houston, with a bachelor's degree in political science and 
journalism.


                           PREPARED STATEMENT


    Madam Secretary, I shall be relatively brief because of our 
time here, our late start. Without objection, my written 
statement will be included in the record. As you and I have 
talked briefly earlier this week, I'm concerned about the 
overall budget. We had a budget for this subcommittee, which 
has in addition to the Department of Education, Health and 
Human Services and Labor, which fell about $8 billion short 
when you figure the cuts and take into account, inflation. I 
know that it is difficult as a loyal member of the 
administration when you have the policies working up through 
the Office of Management and Budget. But as I said to you in 
our telephone conversation, and as I've said repeatedly, I 
think there's a real need for someone in your position to be a 
tough advocate for your Department. Education is simply under 
funded. When I took a look at the President's budget, we're 
always asked for comment and I wanted to be definitive and 
brief and chose the word scandalous which I think it is. I know 
the President, the administration have tremendous problems in 
many, many areas but when you have so much money for the 
National Institutes for Health, and the Centers for Disease 
Control and Prevention, and Worker Safety, and Mine Safety, and 
important education programs, it's simply insufficient to have 
continual cuts on discretionary programs. We're regrettably 
moving to a system where there will be no discretionary funding 
at all. We'll all be out of jobs. The Appropriations Committee, 
which used to be--was once a powerful committee.
    [The statement follows:]

              Prepared Statement of Senator Arlen Specter

    This morning, the Subcommittee on Labor, Health and Human Services, 
and Education will discuss the President's $54.410 billion 2007 budget 
request for the Department of Education. We are delighted to have 
before us the distinguished Secretary of Education, the Honorable 
Margaret Spellings, our Nation's 8th Secretary of Education.
    Madam Secretary, your impressive biography clearly illustrates your 
abilities and potential for leading this important Department. Being a 
mother of two school-age daughters gives you important insights into 
your other job as Secretary of Education.
    This subcommittee is pleased to see several shared priorities 
funded in the fiscal year 2007 budget including the $200 million 
request for school improvement grants, $380 million for the American 
Competitiveness Initiative, and additional funding for foreign language 
instruction and the Advanced Placement Program.
    However, I am concerned that the budget is $2.1 billion below the 
fiscal year 2006 level and that there are 42 program eliminations. For 
example, $303 million currently available for Gear-Up, which provides 
for the transition from seventh grade to college; $1.2 billion for 
State grants for vocational and technical education programs; and $23 
million for correctional education programs all are proposed for 
elimination. The Pell Grant maximum award is frozen at $4,050 for the 
fifth year in a row.
    I know, Madam Secretary, that you can appreciate the difficult 
tradeoffs that this subcommittee will need to negotiate in the coming 
months as we balance the competing pressures of biomedical research, 
worker protection programs and continued investment in our Nation's 
youth. Madam Secretary, I look forward to working with you to craft an 
appropriations bill that maintains our commitment to fiscal restraint 
while preserving funding for high priority programs.

    Senator Specter. Senator Landrieu, would you care to be 
acting ranking and make an opening statement?

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman.
    Senator Specter. Or not be acting, just make an opening 
statement.

                DEPARTMENT LAUDED FOR HURRICANE RESPONSE

    Senator Landrieu. It's hard shoes to fill, but I will make 
an opening statement. Just very briefly because I appreciate 
that we want to hear our witness. But I wanted, Mr. Chairman, 
to be here this morning to give compliments to this 
Department--being mindful of what you said and agreeing with 
the level of funding which I'll get back to in a minute. Which 
I fully agree is scandalous. But Madam Secretary, your 
Department has been really a model of partnership for the State 
of Louisiana through the most difficult time that our State has 
experienced. I spoke to the Secretary, Mr. Chairman, privately 
before to let her know that if every Department of the Federal 
Government had worked this honestly, this reliably, with us we 
would not be experiencing the problems that we're experiencing 
now. In all of the calls, and I had thousands of calls about 
Katrina and Rita and the devastation that occurred, not one 
call did my office receive from any school or university in the 
country or from any parent saying they couldn't find a place 
for their child, or their young person to go to school. Number 
one, because the word went out across the country, please take 
the 330,000 children that showed up for school on Friday; the 
hurricane hit on Sunday, and they had no school to go to on 
Monday.
    Mr. Chairman, it's a credit to the education establishment 
in this country that almost to my knowledge, every high school 
student, every elementary school student, and every college 
student that wanted to, found a place to continue their 
education of the last 6 months, and Madam Secretary, I think 
you deserve a lot of credit for that.
    Second, the quickness in which we were able in a bipartisan 
way, we were able to implement with the chairman's help and 
assistance the special funding for getting our schools back up 
and started also is a great model. Having said that, we still 
have many problems as you know. We're hoping the new school 
system that emerges in New Orleans can be a model for the 
Nation as it emerges as a network of public charter schools and 
we're going to need your ongoing help and commitment to that 
end.
    We do have problems with FEMA in terms of reimbursing and 
not reimbursing for school construction, we've lost over 100 
school buildings, Mr. Chairman, which is a great strain on any 
system, to have to try to build the physical plants as well as 
the internal operations. But I did want to start with that and 
then finally say, having said that, the overall budget for the 
Nation is just not sufficient to meet the new standards and 
challenges that we have set for our schools as we struggle to 
provide excellence, opportunity, no guarantee Madam Secretary, 
but an opportunity.

                            TITLE I FUNDING

    Title I funding, is the only Title that helps poor and 
lower middle-income children get the resources they need; to 
have the kinds of schools they need to be excellent. With that 
funding decreasing I don't know how our poor counties and 
middle-income counties that are struggling can meet the targets 
of No Child Left Behind, which means closing that achievement 
gap. So that's what I'm going to focus on in the committee and, 
Mr. Chairman, I thank you very much.
    Senator Specter. Well thank you very much, Senator 
Landrieu. Well welcome again, Madam Secretary, the floor is 
yours, and we look forward to your testimony.

              SUMMARY STATEMENT OF HON. MARGARET SPELLINGS

    Secretary Spellings. Thank you very much, Mr. Chairman. It 
does seem like all roads lead to you today, and so I'm at your 
service, and thank you for all your work that you're doing, not 
only in this arena, but in many others.

            EDUCATION FUNDS DISBURSED FOR HURRICANE RECOVERY

    Senator Landrieu, thank you for your very generous 
comments. I appreciate the opportunity to be here and your 
support. Let me begin first, by thanking all of you for your 
work on behalf of the victims of hurricanes Rita and Katrina. 
As Senator Landrieu has talked about, we've worked a lot on 
that. After you passed the Hurricane Education Recovery Act in 
December, we sent immediately $250 million to Louisiana, 
Mississippi, Texas, and Alabama to help re-open schools in the 
region. That was in addition to $20 million that we sent to 
help open, or re-open, charter schools for affected students in 
Louisiana, and more than $200 million that we sent to help 
college students in the region. We'll be sending another $500 
million in aid to these States in the coming days, and we've 
been consulting with experts at the Federal, State, and local 
levels, reviewing records from tax data, property loss data, 
and insurance claims, to make sure that this money is allocated 
fairly.
    We'll also be providing $645 million to reimburse districts 
all over the country for the cost of educating displaced 
students, as they've done so welcomingly, and so well. We've 
been working with States to help accelerate this process and to 
identify the number of displaced students so we can begin 
sending this money to schools.

               FISCAL YEAR 2007 EDUCATION BUDGET REQUEST

    But today I'm here to talk about the President's budget, 
and it's more important than ever that we spend taxpayer 
dollars wisely and well. Since taking office in 2001, the 
President has worked with you to increase funding for education 
by about 30 percent. The new budget increases education 
spending in key areas, but, as you've observed, not across the 
board. I know together we have a very tough job ahead. The 
programs you make funding decisions for are discretionary and 
you don't have much room to maneuver. It's only getting harder 
to fund priorities and reduce the deficit, because of the 
rising cost of entitlement spending.

                  AMERICAN COMPETITIVENESS INITIATIVE

    At the same time, as policymakers we must focus on results. 
We've looked at data to see what policies are working for 
students, and where we can save taxpayers money or work more 
efficiently and effectively by eliminating and consolidating 
less effective programs. Raising student achievement is always 
our watch word. The President's new American Competitiveness 
Initiative would devote $380 million to strengthen K-12 math 
and science education. Overall the Department of Education will 
increase funding for its programs in these critical fields by 
51 percent. The President has asked me to form a national math 
panel of experts to help us bring together the best research on 
proven strategies for teaching math; just as we've done in 
reading. His budget includes $250 million for a new program 
called Math Now, that will help elementary and middle school 
students develop the academic foundation to eventually take 
higher-level classes in high school, such as Advanced Placement 
courses. The trouble today is that more than a third of our 
high schools offer no AP classes and that needs to change, 
especially when we know that students are going to need these 
skills in a world where 90 percent of the fastest growing jobs 
require postsecondary education.
    The President has also called for $122 million to prepare 
an additional 70,000 teachers to lead Advanced Placement and 
International Baccalaureate classes in math, science, and 
critical foreign languages. The budget includes $25 million to 
help recruit 30,000 math and science professionals to become 
adjunct high school teachers in these critical areas.
    I know there are concerns about resources, but in reality 
we have resources available around these priorities. Currently 
13 different government agencies spend about $2.8 billion on 
207 different programs for math and science. The problem is 
that these programs are in their own silos with little or no 
coordination with No Child Left Behind and its goals for 
raising student achievement. It's a 1,000 flowers blooming and 
maybe even a few weeds throughout the Government.
    We should align these efforts with the principles of No 
Child Left Behind by continuing to hold schools accountable for 
getting students to grade-level proficiency by 2014, and by 
giving local policymakers and educators resources, authority, 
and the research base to do what's best.

               SCHOOL IMPROVEMENT AND HIGH SCHOOL REFORM

    Thanks to No Child Left Behind, we've reached a point where 
we have the data to see what's working in our schools and what 
needs to work better. We're proposing a new $200 million School 
Improvement program to help States use what we've learned to 
turn around schools in need of improvement. Now we must build 
on the foundations of the NCLB law, which is working in grades 
three through eight, to extend the benefits of assessment and 
accountability for results into our high schools, with the 
President's $1.5 billion high school reform proposal. There's a 
wide and growing consensus that we have a problem in our high 
schools and we must work together to address these issues. A 
high school diploma must be a record of achievement and not 
just a certificate of attendance. If we raise the bar, our 
students will rise to the challenge just as they always have, 
but we must give them the skills to compete.

                           PREPARED STATEMENT

    Thank you. I'd be glad to answer any questions. With me 
today is Tom Skelly, our Budget Director, who tells me he's 
been doing this since 1976. So he knows what he's doing by now.
    [The statement follows:]
             Prepared Statement of Hon. Margaret Spellings
    Mr. Chairman and Members of the Committee. Thank you for this 
opportunity to testify on behalf of the President's 2007 budget for 
education. I know you have received our Congressional justifications 
and other background materials laying out the details of our request, 
so I will concentrate on a few key highlights.
    President Bush is requesting $54.4 billion in discretionary 
appropriations for the Department of Education in fiscal year 2007. We 
are proposing significant increases in key areas, as well as 
substantial savings from reductions in lower priorities. The result 
would be a discretionary total that is up more than $12 billion, or 29 
percent, since fiscal year 2001.
    We know the 2007 budget process will involve difficult trade-offs 
among existing programs, just as was the case with the 2006 
appropriations bill. In 2006, we saw that this Subcommittee was willing 
to balance funding for priority programs with reductions and 
eliminations in other activities, and we hope you will take the same 
approach in 2007.
    For example, our budget would save $3.5 billion by eliminating 
funding for 42 programs. These reductions and terminations reflect the 
Administration's longstanding goal of providing local control, 
streamlining government to avoid unnecessary duplication, and targeting 
taxpayer dollars to those programs with the greatest promise of 
improving student outcomes. Let me add that we very much appreciate the 
efforts of this Subcommittee last year in eliminating five Department 
programs, and making significant reductions in several others, in order 
to better target existing resources. We look forward to working with 
you on this goal again this year.

                  A BROAD EMPHASIS ON COMPETITIVENESS

    President Bush has made ensuring American competitiveness in the 
global economy a strong priority in his overall 2007 budget, primarily 
through his American Competitiveness Initiative. Several of the 
increases in the Department's request are part of that Initiative, and 
I'll say more about them in a minute, but I think most of you would 
agree that we need to address the competitiveness issue in America's 
schools now, this year. This is why most of our major increases for 
2007--not just those included in the President's Initiative--are aimed 
at keeping our students, and our workforce, competitive for the 21st 
century.
    In that context, a key proposal for 2007 is a renewed request for 
High School Reform, a $1.5 billion initiative to support a wide range 
of locally determined reforms aimed at ensuring that every student not 
only graduates from high school, but graduates with the skills to 
succeed in either college or the workforce. The High School Reform 
proposal also would require States to assess students, in reading or 
language arts and math, at two additional grades in high school. NCLB 
currently requires assessments in these subjects for just one high 
school grade. We believe the additional assessments are needed to 
increase accountability and give parents and teachers the information 
they need to keep all students on track toward graduation. And more 
generally, these assessments will help researchers and policymakers 
understand more about what works and what doesn't work in our high 
schools, a key goal when about 1 million high school students a year 
drop out, at great cost to our economy and society. Too many students 
drop out, and too many of them are minorities.
    We also are seeking $100 million for the Striving Readers program, 
which is applying the lessons of the successful Reading First model, 
which translates research into practice to improve reading instruction 
for young children, at the secondary school level. The $70 million 
increase for this program would expand support for the development and 
implementation of research-based methods for improving the skills of 
teenage students who are reading below grade level, and who otherwise 
might end up dropping out of school. It's hard to compete with anyone 
if you don't finish high school.

                            MATH AND SCIENCE

    A critical new focus for 2007 is on improving student achievement 
in math and science from the early grades through high school, and the 
President is seeking $380 million in new funding to support this goal 
through his American Competitiveness Initiative (ACI). That total 
includes $250 million for two proposed programs we call Math Now, one 
focused on developing and implementing proven instructional practices 
for students in grades K-6, and one to support research-based 
interventions for middle school students. Both initiatives would be 
guided by the recommendations of a National Mathematics Panel that I 
will appoint soon, and that will be charged with identifying essential 
math content and sound instructional principles, just as the National 
Reading Panel did for reading instruction.
    Another key ACI request is a $90 million increase for the Advanced 
Placement program, to expand incentives for training teachers and 
encouraging students, particularly in high-poverty schools, to take 
high-level Advanced Placement and International Baccalaureate courses 
in math, science, and critical foreign languages. We also are proposing 
a new requirement for State or private-sector matching funds to expand 
the reach of the AP program, so that we can train an estimated 70,000 
teachers over the next five years. Over the long term, this proposal 
would increase the number of students taking AP-IB exams in math, 
science, and critical foreign languages from 380,000 today to 1.5 
million in 2012, and triple the number of students passing these tests 
to 700,000 by 2012.
    I believe that increasing the number of American students studying 
and gaining fluency in critical foreign languages is essential not only 
for our national security, as suggested by the President's National 
Security Language Initiative, but also to maintain our economic 
competitiveness. That's why I'm very pleased that our request includes 
$35 million in new funds for a package of proposals that would 
encourage more students to master a critical foreign language. The 
largest proposal is $24 million for Advancing America Through Foreign 
Language Partnerships, a new program that would link postsecondary 
institutions with school districts to support language learning from 
kindergarten through high school, as well as advanced language study at 
the postsecondary level.

             BUILDING STATE CAPACITY FOR SCHOOL IMPROVEMENT

    We continue to make good progress in implementing No Child Left 
Behind, with scores on State assessments up significantly across the 
country, and the National Assessment of Educational Progress showing 
real improvements in closing achievement gaps, especially in the early 
grades addressed by key NCLB programs like Title I and Reading First. 
Our 2007 request would help maintain that positive momentum, while 
providing a new push in the area of school improvement. Our budget 
would provide $12.7 billion for Title I Grants to Local Educational 
Agencies, which is the foundation of NCLB, while funding a $200 million 
School Improvement Grants program. This initiative would help States to 
establish and expand the statewide systems of improvement and support 
that are essential to the long-term success of NCLB. If we're going to 
reach the 100-percent proficiency goal by 2013-14, we need to make 
continuous improvement our watchword, and our request would help States 
do just that.
    Our request also would support additional options for students 
enrolled in schools that have been identified for restructuring--these 
are chronically low-performing schools that have not made adequate 
yearly progress under NCLB for at least 5 years. The $100 million 
America's Opportunity Scholarships for Kids program would permit the 
parents of such students to transfer their children to a private school 
or to obtain intensive tutoring or other supplemental services, 
including after-school and summer-school instruction. The President 
believes that for accountability to be meaningful, there must be real 
consequences for schools and real options for students and parents.

                             OTHER PROGRAMS

    The 2007 budget would provide a $100 million increase for the 
reauthorized Special Education Grants to States program, for a total 
increase of $4.3 billion, or 69 percent, over the past five years. We 
also would maintain a $4,050 Pell Grant maximum award with a $12.7 
billion request for that program, while continuing to support the new 
Academic Competitiveness Grants and National SMART Grants program. I 
want to thank the Members of this Subcommittee, along with your 
colleagues in the House, for supporting these critical new grant 
programs. In particular, SMART Grants complement the President's 
American Competitiveness Initiative by awarding up to $4,000 annually 
to third- and fourth-year postsecondary students majoring in physical, 
life, or computer sciences, mathematics, technology, engineering, or a 
critical foreign language.

                               CONCLUSION

    These highlights of our 2007 request show that within the very 
tight constraints required by the need to reduce the Federal budget 
deficit in a time of war, we are proposing a strong education budget, 
one that will maintain and even accelerate progress under No Child Left 
Behind, while making key new investments in critical areas designed to 
ensure our future competitiveness in the 21st century global economy.
    I will be happy to answer any questions you may have.

              FISCAL YEAR 2007 EDUCATION BUDGET PRIORITIES

    Senator Specter. Thank you very much, Madam Secretary. I 
begin with the questions which I posed in the letter which I 
sent to you, last month. I focus at the outset on the proposed 
budget for the Department of Education, being $2.1 billion 
below last year. The Department has highlighted rising test 
scores, a narrowing of the achievement gaps since the passage 
of No Child Left Behind, and the increase in Federal funding 
that has accomplished those results. What are the prospects for 
continued progress with the budget cuts which are in your 
proposal?
    Secretary Spellings. Well Senator, I think there are a 
couple of answers to that. One is that the priorities of No 
Child Left Behind are indeed funded in the President's budget--
the emphasis on reading, the emphasis on teacher development, 
the emphasis on Title I. Then there are the additional 
resources that we are requesting for school improvement--the 
$200 million that we need as the No Child Left Behind law 
matures--as well as the investment in competitiveness, and in 
high schools, and in math and science. So I think that where we 
have resources we've focused them on the goals of No Child Left 
Behind. Second, I would say that a lot of the infrastructure 
that was needed to be put in place to do No Child Left Behind, 
such as assessments, and reading curriculum reform and those 
sorts of things, has been done, and now we're turning our 
attention to the maturing of No Child Left Behind and these 
other priorities.
    Senator Specter. The difficulty, Madam Secretary, is that 
there are cuts in a lot of programs which impact the students 
whom you're trying to deal with in No Child Left Behind. You're 
robbing Peter to pay Paul, really. When you have a net decrease 
of $2.1 billion and you have the inflation factor as well, it 
just seems to me that it's impossible to make it up with the 
shuffling that you're suggesting.

             PUBLIC SCHOOL CHOICE AND SUPPLEMENTAL SERVICES

    What is the situation with the repeated public comments 
about the difficulty of moving students from one school which 
is not satisfactory to other schools? We see constant 
complaints that the recipient school districts are unable to 
accommodate the students, that that has not really been a 
practical or realistic program?
    Secretary Spellings. Let me make a couple of comments about 
that, Senator. First, I've observed that also. We have about a 
10 percent take-up, if you will: 2 million students are 
eligible for supplemental services, and about 200,000 students 
are seeking those options. So we must do a better job of making 
sure those options for parents are real. But one of the things 
I think I've learned, and we're piloting strategies in various 
places around the country, is, does it make more sense--and we 
ought to get some data about this--to allow students to get 
extra intervention and supplemental services before the public 
school choice options are used. So we're testing that theory in 
Chicago, Los Angeles, New York, and some districts in Virginia 
will also test that out. Does it make more sense, before we 
ship them off to other schools, to get them additional 
remediation. That's why the President's call for an additional 
$100 million for either choice, or ramped up supplemental 
services, makes a lot of sense.
    Senator Specter. But you still are letting them choose to 
go to another district, aren't you?
    Secretary Spellings. The public school choice options, yes, 
are still in place. But what I'm saying is, perhaps parents 
would be equally satisfied or more satisfied to receive 
supplemental services first.
    Senator Specter. Well, are you saying that in all 
situations where children want to move from an inferior school 
to a better school that there are remedial programs to 
discourage their moving?
    Secretary Spellings. Well, I'm saying that perhaps in the 
meantime, as we address these choice issues, that getting 
remediation in a particular skill or subject, quickly and 
readily available, convenient----
    Senator Specter. Well, are you talking about something 
which is realistic, so that we have inferior schools in those 
situations, all of those situations, or almost all of those 
situations, or most of those situations, you have remedial 
programs to discourage going to another school?
    Secretary Spellings. Well, I think it's a range of 
fallibility if you will. I mean, some of these schools are 
chronically low performing and that's why we need to spend $200 
million to make sure that real school restructuring takes 
place.

                 EFFECTIVENESS OF SUPPLEMENTAL SERVICES

    Senator Specter. Madam Secretary, my time is almost up and 
I'm going to observe the time. But the question really is, is 
that a palliative and a fig leaf, or does it really work?
    Secretary Spellings. I think supplemental services can work 
very well educationally for kids.
    Senator Specter. Can. But do they, are they? Are there 
sufficient supplemental services to pick up on this very 
critical program problem?
    Secretary Spellings. In some places there are, and in some 
places there are not, Senator. Clearly, I agree.
    Senator Specter. Well, that's not satisfactory. My red 
light went on, so I'm going to yield at this point to 
distinguished ranking member Senator Harkin.
    Senator Harkin. Thank you very much Mr. Chairman, I 
apologize for being late, I'll just forgo my opening statement 
and ask that it be made a part of the record, if that's okay.
    Senator Specter. Without objection, it will be made part of 
the record.
    [The statement follows:]

                Prepared Statement of Senator Tom Harkin

    Good morning, Madam Secretary. I don't get to see you that often in 
person, so I want to take this opportunity to commend you for the steps 
you've taken to make the No Child Left Behind Act more flexible. 
There's still room for improvement, but you're responding to the 
concerns that many people have with this law, and you deserve credit 
for that.
    Today, however, our focus is on the President's proposed budget for 
education. And I must speak frankly: I don't see how anyone in this 
administration can defend it.
    This budget would cut federal education spending by $2.1 billion. 
That's the largest cut, in dollars, in the 26-year history of the 
Education Department. And it comes on the heels of a $600 million cut 
in fiscal year 2006--the first cut in a decade.
    It looks to me as if this administration has basically given up on 
the three programs that matter most to the Nation's students--Title I, 
IDEA, and Pell.
    Title I is the cornerstone program for the No Child Left Behind 
Act. It's the program that targets aid to the students who are most at 
risk of failing. That's why NCLB calls for a $2.2 billion increase for 
Title I this year. But how much more does the President ask for? Zero. 
It's flat funded.
    This administration has also given up on funding for students with 
disabilities. In fact, it's moving in the wrong direction. In fiscal 
year 2005, the federal government provided 19 percent of the average 
per-pupil expenditure toward the costs of special education. This year, 
fiscal year 2006, it went down to 18 percent. Next year, under this 
budget, it would go down again, to 17 percent. As the federal share 
goes down, states and local districts have to pick up more of the tab. 
And we all know what that means--higher property taxes.
    This administration has also given up on student aid. Under this 
budget, the maximum Pell Grant award would be frozen at $4,050, the 
same level as four years ago. I wonder if there are any colleges in 
America that charge the same amount for tuition that they did four 
years ago. I doubt it. It gets tougher and tougher all the time for 
low- and middle-income families to afford college, but this 
administration doesn't seem to care.
    It's as if the President said, ``Well, I spent a little money on 
education during the first couple years of my administration. So much 
for that. I'm done.''
    So if there's nothing in this budget for Title I, Pell, and IDEA, 
what is there? Unfortunately, a lot of the ``same old, same old.''
    Once again, the President proposes a high school reform initiative. 
But as far as I'm concerned, it's dead on arrival. The President asked 
for it last year, Congress rejected it, and the same thing will happen 
again this year, as long as it's contingent on eliminating the Perkins 
vocational ed program.
    And speaking of eliminations, the budget zeroes out 42 programs in 
all. Forty-one of them are programs you tried, unsuccessfully, to 
eliminate in the past. Congress restored the funding for them last 
year, and I can tell you right now, we'll restore funding for almost 
all of them again this year.
    Like I said, more of the ``same old, same old.''
    There are really only two new initiatives in this budget of any 
significance: the Math Now programs, which cost a total of $250 
million, and the Title I School Improvement Grants, which are budgeted 
for $200 million.
    I happen to like both of these ideas. In fact, I was the first 
Member of Congress to include funding for School Improvement Grants in 
an appropriations bill. In fiscal year 2003, when I was chairman of 
this subcommittee, I included $100 million for this program in the 
Senate Labor-HHS bill. It didn't end up getting funded, but I'd like to 
see it happen.
    But where will the money come from to fund these new initiatives? I 
guarantee you: We're going to restore the TRIO programs that this 
budget would eliminate. There's enormous bipartisan support for TRIO. 
So that's $456 million that we've got to find from somewhere. We're 
going to restore GEAR-UP, at $303 million. We're going to restore the 
Robert C. Byrd Scholarships, at $41 million. We're going to restore the 
counseling programs, at $35 million. I created that program, so I can 
assure you that Congress will save it.
    I could go on and on, program after program. But here's the bottom 
line: Unless the President helps up find more money overall for 
education, his new initiatives are simply not going to get funded, at 
least not anywhere close to the levels he wants.
    I've served on this subcommittee as ranking member or chairman 
since 1989, so I know what I'm talking about. If you want us to fund 
these presidential initiatives, you're going to have to work with us to 
get our congressional priorities funded as well.
    Again, Madam Secretary, I want to welcome you to the subcommittee. 
I look orward to hearing your testimony.

              NO CHILD LEFT BEHIND FLEXIBILITY PROVISIONS

    Senator Harkin. Madam Secretary, welcome. First a 
compliment before I get into the other stuff, if you don't 
mind; I don't see you that often, I just want to take the 
opportunity to commend you for the steps that you've taken to 
make the No Child Left Behind Act more flexible. That has 
always been a sore point, and I appreciate that. There's I 
think, still some room for improvement. But I think you were 
responding to the concerns that many people have with this law, 
and I think you deserve credit for that--to get that 
flexibility in there. But that's aside from today.

          FISCAL YEAR 2007 EDUCATION DEPARTMENT BUDGET REQUEST

    We're talking about the budget. I guess my first question 
was, the budget that you've sent up for our subcommittee on 
education, would you Madam Secretary, like to see it passed 
exactly as you sent it up?
    Secretary Spellings. Well, Senator, as you know, we propose 
and you dispose. It's a process between the two of us, we 
seldom end up--you know, you all seldom enact exactly what the 
President sends up. I mean obviously----
    Senator Harkin. I'm just asking you. Do you back it? Do you 
back it as you sent it up?
    Secretary Spellings. Certainly. I support the President's 
budget.
    Senator Harkin. Does your boss the President back it as it 
was sent up.
    Secretary Spellings. Yes, he does.
    Senator Harkin. So he wants it enacted just like that?
    Secretary Spellings. Well, I think he believes that this is 
the smartest, best allocation of resources, given all the 
various priorities in the Government.

                     PROPOSED EDUCATION BUDGET CUTS

    Senator Harkin. I just want to get that clear for the 
record. That this isn't just some little game, that this is a 
budget that your boss the President of the United States, 
proposed to us, and this is how he'd like to see it enacted and 
so would you, Madam Secretary. Here is the biggest cut in 
Federal education spending, $2.1 billion in the 26 year history 
of the Education Department. Do you disagree with that?
    Secretary Spellings. Well, Senator----
    Senator Harkin. Is that figure correct, or not?
    Secretary Spellings. I can't remember the exact figure, the 
$2.1----
    Senator Harkin. That's what I have; I just want to make 
sure we're on the same page.
    Mr. Skelly. It's the biggest since 1988. So not 26 years.
    Senator Harkin. So what year was the bigger cut?
    Mr. Skelly. 1988.
    Senator Harkin. 1988 was a bigger cut?
    Mr. Skelly. In dollars and in percentage.
    Senator Harkin. In dollars and in percentage, in 1988.
    Mr. Skelly. Yes sir.
    Senator Harkin. Okay, so I was off a few years. Then we had 
a $600 million cut in fiscal year 2006. Right?
    Mr. Skelly. That's right, Senator.
    [Clerk's Note.--Senator Harkin was correct. The proposed 
cut of $2.1 billion would be the largest reduction in the 26-
year history of the Education Department. The cut in 1988 was 
larger as a percentage of the total budget, but not in 
dollars.]

                         TITLE I GRANTS TO LEAS

    Senator Harkin. Okay. I just want to make sure we're on the 
same page. Now let's turn to Title I, cornerstone program of 
the No Child Left Behind Act. Madam Secretary, I read your 
testimony, you said it was the cornerstone.
    Secretary Spellings. I do.
    Senator Harkin. No Child Left Behind calls for a $2.2 
billion increase for Title I this year, how much did the 
President ask for? Zero. Flat funded.
    Secretary Spellings. As well----
    Senator Harkin. That's quite a cornerstone.
    Secretary Spellings. As well as some additional resources 
that attach to No Child Left Behind, like $200 million for 
school improvement.
    Senator Harkin. But Title I is the cornerstone, you say 
that. When it's flat funded and when No Child Left Behind Act 
calls for a $2.21 billion increase for Title I this year, 
something's wrong with the cornerstone.

                           SPECIAL EDUCATION

    Special education, Republicans and Democrats for years have 
been saying we've got to get it to the 40 percent level, you 
know what I'm talking about.
    Secretary Spellings. Right, I do.
    Senator Harkin. We've talked about it; we've had votes on 
it, Senate Resolutions that are 100 to nothing, or 99 to 1 or 
something like that, about doing this. Well, we've been inching 
up the last few years, under the leadership of Senator Specter. 
We've been getting it up; we've gone up to 19 percent. An all 
time high. Last year we went back to 18, under this budget we 
go back to 17 percent.
    I don't know how you can see this as any kind of progress 
at all on how the administration can support this.

                              PELL GRANTS

    Student aid Pell Grants are now frozen at $4,050, the same 
as 4 years ago. Can you name me one college in the United 
States where the tuition is the same this year as it was 4 
years ago? There isn't such a place. Yet the Pell Grant's 
frozen at that. These are for the poorest of kids. I mean you 
know what you have to do to qualify for a Pell Grant?
    Secretary Spellings. I do.
    Senator Harkin. You just about have to have nothing to 
qualify for a Pell Grant. But yet, the President talks about 
his competitiveness initiative. Sounds great, we all believe in 
that, but is it just competitiveness just for the kids of 
wealthy families, or families who can get loans and stuff like 
that; how about competitiveness for the kids that qualify for 
Pell Grants. What about them? What about their competitiveness? 
Where do they fit into this picture? Well--I just don't see how 
you can support that. I'm not saying it's all bad. There are 
some things that you got in there that are good. Some of the 
math and science stuff is okay. That's fine. Little bits and 
pieces here and there. But in total, I just can't imagine your 
support for that. I see my time is up now, and I didn't really 
get a question in, but I wanted to make sure that we were 
talking about apples and apples, and not oranges and apples and 
that kind of stuff, and maybe on the second round I can have a 
question about that. Thank you very much.
    Senator Specter. Thank you, Senator Harkin. Senator 
Landrieu.

               EDUCATION RESPONSE FOR HURRICANE RECOVERY

    Senator Landrieu. As the ranking member is here--before you 
came in Senator, I was complimentary of the Department, of the 
great work that they have done for the Hurricane Katrina and 
Rita victims, and said what a reliable partner they've been. I 
want to thank you also, Senator Harkin, because without you and 
Senator Specter our education aid bill would not have passed 
the way it did, and I want to say how much we appreciate that.

                    FISCAL YEAR 2007 BUDGET REQUEST

    Having said that, I want to agree with what both the 
chairman and ranking member said; not only do I think this 
budget is scandalous in terms of short changing our goals, 
Madam Secretary, for No Child Left Behind, but it's 
disheartening and wholly inadequate. Disheartening for the army 
of people out there trying to close these achievement gaps, 
making the changes, pushing themselves to achieve excellence, 
only to find their budget is being cut. While Title I is flat 
funded dollar for dollar for last year, because it does not 
have an inflation factor and it's not taking into consideration 
the extra efforts being made to move these poor and low-income, 
and moderate-income children up, it really is short changing 
their ability.
    Last night I got to attend a function in Washington, the 
Youth National Guard Youth Challenge Program, that tries to 
focus on reaching the 33 million Americans between the ages of 
16 and 24 that do not have a high school diploma--33 million 
Americans between the ages of 16 and 24. Those numbers don't 
just pop, they are created by budgets like this that do not 
provide the support of children in those early grades so that 
they could get a diploma of achievement--they can read, and 
calculate at grade level.
    I know that as the Department's Secretary you're 
responsible for carrying out the President's budget. But I want 
to say as a Senator who is given choices between extending 
dividend tax cuts, reducing capital gains taxes, this is what 
is paying for those tax cuts. The short changing in education 
for children in Louisiana, Mississippi, the Gulf Coast, 
Arizona, in Pennsylvania, in Wisconsin, and in places in Iowa, 
and all places are paying for those tax cuts. I think it's too 
heavy of a price. I just want to go on record. It's too heavy 
of a price to pay. We end up paying for it, in you know, 
criminal justice systems. We end up paying it in mental health 
services. The taxpayer's don't get a break. The taxpayers just 
pick it up in a more painful, more expensive way. I don't know 
when we're going to learn that investment in early childhood 
education is giving children a fighting chance. There's no 
guarantee of success, but I want to say for the record and my 
time, and I'd like to ask you this question because only our 
Federal portion represents about 8 to 10 percent of the total. 
The States are picking up about 70 percent, is that correct 
Madam Secretary of Education, expenses at the State level?
    Secretary Spellings. It varies around the country.

             EQUITABLE DISTRIBUTION OF EDUCATION RESOURCES

    Senator Landrieu. What is the Department doing to try to 
equalize or make more equitable the funding in the country, 
from our wealthier counties, to our poor counties? If you could 
just focus a minute of your answer. I know we haven't directed 
you as such. Title I attempts to try to equal--it's Congress' 
best attempt to try to give poor and middle income children the 
same resources available. But is this Department at all focused 
on that resource gap? There's an achievement gap, but there's a 
resource gap. Do you know what it is, can you just tell us, and 
give us a minute of what you're doing to try to close that gap?

               DISTRIBUTION OF HIGHLY QUALIFIED PERSONNEL

    Secretary Spellings. Well, that's a great question and I 
think it manifests itself in a lot of ways. Highly qualified 
teachers: one of the dirty little secrets in education is that 
our most qualified people are in our least challenging 
environments and vice versa, and so as we implement No Child 
Left Behind we ought to look at how States and school districts 
allocate highly qualified personnel. The President's budget 
proposal on Advanced Placement (AP)--I talked about the 40 
percent of the high schools that offer no AP at all. I use the 
example in my speeches that in Fairfax County, Virginia, you 
can find schools with 20 plus AP classes, whereas in the 
District of Columbia, Ballou High School has just 3 or 4. Those 
are exactly the kinds of things that we need to address as part 
of either implementing No Child Left Behind or the resources 
that the President has asked for.
    No Child Left Behind--whether it's for special education 
students or limited English speakers--has focused educators on 
bottom line results for all kids and resources. Obviously, our 
Federal commitment has always been to our Nation's neediest 
students, and that's why we invest so much money in IDEA and 
Title I, to help level out those educational opportunities 
around the country. With respect to Title I, obviously the 
formula reflects the numbers of poor kids as they migrate 
around our country.

                PER PUPIL EXPENDITURES ACROSS THE NATION

    Senator Landrieu. Just to conclude though, Mr. Chairman, we 
focus on the neediest. But I can say from--there are a lot of 
middle-income families now that would classify themselves as 
middle-income that are stretched and need help and as we 
continue to cut these programs back, we're touching the bottom 
5 or 7 percent, when we should be trying to help the bottom 40 
or 50 percent. Tom, I would like you just to submit for the 
record, the difference in resources from the poorest counties, 
to the wealthiest counties to give us an update for the record 
of this committee. I understand in some places it's like $3,000 
or $4,000 a child, and then in some counties we're spending 
$12,000-$14,000 a child. I know that we don't direct that 
funding, but we can you know recognize that while there's an 
achievement gap, there's a resource gap that this committee has 
an obligation to fix, or try to fix. Thank you.
    [The information follows:]

      EDUCATION FUNDING IN HIGH-POVERTY AND LOW-POVERTY DISTRICTS

    Average expenditures per student vary across local educational 
agencies (LEAs) from about $3,300 to over $20,000 per student, 
according to the 2003 Public Elementary-Secondary Education Finance 
Data compiled by the Census Bureau. Most of the largest and smallest 
figures are for very small school districts with limited enrollment. 
For example, of the 10 LEAs with expenditures per student between 
$3,000 and $4,000, only 1 had an enrollment of over 100 students. They 
are mostly small, rural school districts, including 5 in Nebraska and 3 
in Montana. However, even excluding the very small and rural school 
outliers, there is a significant difference in the per-student averages 
among the poorest and wealthiest LEAs (with ``poor'' and ``wealthy'' 
defined on the basis of the percentage of school-aged children living 
in poverty). The 100 LEAs with the lowest poverty rates and enrollment 
of at least 1,000 had average expenditures of $9,585 per student, while 
the 100 LEAs with the highest poverty rates and enrollment of at least 
1,000 had average expenditures of $7,897 per student.
    Among the poorest LEAs, defined as those with poverty above 40 
percent, there are many sizable school districts with average 
expenditures well below the national average of about $8,100. For 
example, Roosevelt Elementary School District in Arizona, with a 
poverty rate over 45 percent and enrollment of 11,000, had an average 
expenditure per student of $5,900. Laredo Independent School District 
in Texas (45 percent poverty; enrollment of 24,000) had an average 
expenditure per student of $6,900. Greenville Public School District in 
Mississippi (42 percent poverty; enrollment of 7,400) had an average 
expenditure per student of $5,900. But there are also many poor 
districts with larger than average expenditures per student. These 
include Muskegon Heights School District in Michigan (44 percent 
poverty; $10,300 per student), Todd County, South Dakota (40 percent 
poverty; $11,500 per student) and Rochester City School District in New 
York (40 percent poverty; $12,711 per student).
    The same can be said for the wealthier school districts. There are 
examples of high per-student expenditures, such as Fairfax County, 
Virginia (6 percent poverty; $9,500 per student), Montgomery County, 
Maryland (7 percent poverty; $10,580 per student), and Cherry Hill, New 
Jersey (3 percent poverty; $11,300 per student) as well as examples of 
low per-student expenditures, such as Clay County, Florida (9 percent 
poverty; $5,600 per student), Scottsdale School District, Arizona (7 
percent poverty; $5,600 per student), and Alpine School District in 
Utah (9 percent poverty; $4,400 per student).
    While the spread is significant between the poorest and wealthiest 
districts, there is a more noticeable pattern among States. The 142 
LEAs with an average expenditure per-student below $5,000 are in only 
17 States, with the majority in Arizona, Oklahoma, Utah, Montana, and 
Nebraska. At the other end of the spectrum, half of the 200 LEAs with 
the highest average expenditure per student are in three States: 
California, New York, and New Jersey.

                       VOCATIONAL EDUCATION FUNDS

    Senator Specter. Thank you, Senator Landrieu. Senator Kohl.
    Senator Kohl. Thank you very much Mr. Chairman.
    Secretary Spellings; you'll recall that we spoke at last 
year's hearing about Perkins Vocational Education program. 
Perkins is very important to every State, but particularly my 
State. Wisconsin received almost $25 million in Perkins funds 
last year, and over 23,000 students benefit in my State from 
Perkins services. The vast majority of Perkins recipients in 
Wisconsin have gone on to graduate and obtain high skill, high 
wage jobs. Last year the President proposed to eliminate 
Perkins funding but the Congress refused to go along, as you 
know. The Senate voted to reauthorize Perkins by a vote of 99 
to nothing. We also worked to restore most of the funding cut 
by the President. One would think that these actions would have 
sent a very strong message to the President, and Senators in 
both parties feel strongly about Perkins. Yet once again, as 
you know, the President's proposed elimination of this vital 
program in 2007. Would you explain how he apparently is so out 
of touch with we here who live and work with the problem 
everyday in our States? Not just to reduce Perkins, which is 
unacceptable, but to eliminate Perkins, which seems to me to be 
incomprehensible.

                   INVESTMENT IN SECONDARY EDUCATION

    Secretary Spellings. Senator, yes I will. The President 
believes that we ought to gather up the resources that we spend 
in vocational education, TRIO, and GEAR UP and a number of our 
secondary school investments and create a high school reform 
program; a $1.5 billion high school initiative for States to 
use as they see fit, around graduation rates and enhanced 
achievement for all high school students, including additional 
accountability and the like. When and where vocational 
education programs, GEAR UP, TRIO, any of those programs work 
well, then States can and should--and I'm confident will--
continue to invest in those. But I think we also have to look 
at our results of secondary education, and that is about half 
of the African American and Hispanic kids who start high school 
do not complete high school. When these resources and these 
programs are targeted to them I think we have to ask ourselves, 
are they working as well as they can be in the aggregate.
    Senator Kohl. Well, I don't think you've really answered 
the question, he still proposes eliminating Perkins and 
aggregating it all really in the final analysis results in 
cuts. But it's just done in a way that we don't really see how 
these cuts occur, but that's I believe pretty clear to most of 
us who look at this closely that aggregating really involves 
cutting. Madam Secretary, I supported the No Child Left Behind 
because it guaranteed flexibility and accountability would come 
with more Federal funding to make it work. Instead, funding 
levels have fallen billions of dollars short of what was 
authorized and these cuts as you know cause real hardships. 
Schools are being forced to cut staff and important programs 
like summer school, class size reductions, arts, physical 
education, and languages. Last year almost 11,000 schools 
failed to make adequately yearly progress under No Child Left 
Behind thus facing Federal sanctions. These schools will face 
even greater challenges as testing and teacher quality 
requirements go into full effect.
    So isn't it time to provide the funding that was promised 
so that we can give schools and students a real chance to 
succeed which was the premise behind No Child Left Behind, that 
there would be funding which is by all accounts not what was 
promised. Where do we go from here?

                     ALLOCATION OF BUDGET RESOURCES

    Secretary Spellings. I think what you'll find in the 
President's budget, and it is a tough budget no doubt about it, 
is that the resources are allocated around the core principles 
of No Child Left Behind, such as our sustained investments in 
Title I, in reading, in teacher quality, and the accountability 
features and achievement. That those are our most--that's our 
most urgent calling, and our highest priority for resources.

                              PELL GRANTS

    Senator Kohl. Madam Secretary, the President's budget 
proposal also targets student aid programs for harmful cuts 
including a $4.6 billion reduction in funding for Pell Grants. 
The maximum Pell Grant award is again frozen at $4,050 for the 
fifth year in a row, despite rising tuition costs. These may 
just seem like numbers but they also have a real impact on 
students who are struggling to go to college. The University of 
Wisconsin in Madison alone dispersed $9.2 million in Pell 
Grants to 3,751 low-income students last year. In 1975 the Pell 
Grant recovered 80 percent of the costs of a 4-year public 
education in college and today that number is down to about 40 
percent. So my question is, how can this administration claim 
to want to make higher education a reality for low-income 
students while at the same time cut the very programs that 
would help them achieve that goal.
    Secretary Spellings. Well, let me respond in a couple of 
ways. One, while as you said the Pell Grant itself is still 
$4,050, the actual grant has not been cut. There will be about 
59,000 more students who will be taking advantage of Pell 
Grants. In addition to that, as part of the reconciliation that 
you all passed, there are additional resources for students who 
are studying in the critical areas of science, technology, 
engineering and math. Starting with about an additional $750 
for year one of their studies, going up to $4,000 by the fourth 
year if they pursue those particular fields. As you know, the 
Congress finally has eliminated the Pell shortfall that has 
vexed us for so long, which is most of that $4 billion that you 
spoke of, but I think what we know is that the community 
colleges, in particular, continue to be able to offer a full 
and complete education at the Pell Grant level. So it's a 
matter of students frequently starting there at community 
college as opposed to a State university. But the Pell Grant 
does remain stable at $4,050.

                           PREPARED STATEMENT

    Senator Kohl. Thank you, and before I turn it back to the 
chairman, my time has expired. When you keep a program like 
Pell Grants at the same level for 5 years, you are reducing its 
value, obviously. When I pointed out that the Pell Grant 
covered in 1975, 80 percent of your public education and today 
it's 40 percent, that describes the erosion of keeping the 
number at a constant level. Thank you so much, and thank you 
Mr. Chairman.
    [The statement follows:]

                Prepared Statement of Senator Herb Kohl

    Thank you, Mr. Chairman. Secretary Spellings, I join my colleagues 
in welcoming you here today. You face a significant and challenging 
task in managing the Department of Education and I hope that we can 
work together to improve access to education for all Americans.
    I appreciate the difficult task you face in funding the many 
education priorities of our country. That job is more challenging, in 
our view, because this Administration has chosen budget and tax 
policies that have led to rising deficits and diminishing resources 
available for essential education programs.
    This budget is abysmal for the education community. It proposes the 
largest cut to federal education funding in the 26-year history of the 
Department. Students, educators, parents, and administrators all lose 
out under this budget. Funding for No Child Left Behind and Special 
Education, the main federal funding streams for our local school 
districts, are a far cry from their authorized levels. More 
specifically, funding for No Child Left Behind is $12.3 billion dollars 
below the authorization level, and IDEA is $6.3 billion short in 2007. 
In addition, over forty programs are slated for elimination, including 
funding for Career and Technical Education, Safe and Drug Free Schools, 
and TRIO programs.
    The President's budget should reflect our nation's priorities--but 
these are just a few examples of this budget being out of step with our 
values. I will continue to work with my colleagues to improve upon this 
budget. Madame Secretary, I hope that you will work with us to better 
meet our nation's education needs.

    Senator Specter. Thank you Senator Kohl, Senator Craig.

                  AMERICAN COMPETITIVENESS INITIATIVE

    Senator Craig. Mr. Chairman, thank you very much. Madam 
Secretary, I'm pleased you're with us this morning. First and 
foremost, I want to commend you and the President for including 
the American Competitiveness Initiative in his State of the 
Union. I thought that was critically important, and I'm looking 
forward to working with the Department of Education and in this 
instance the Department of Energy will have a fair chunk of 
that, and my colleagues in the implementation of many of those 
proposals. I think it's important. I think we can convince the 
American people it's important, that we remain competitive and 
that we design a system that allows us to do that. When we were 
holding hearings on that recently in the Energy committee I was 
likening it to our reaction to Sputnik. The Defense Education 
Act of the 1960s that followed and the tremendous--and the 
fallout, the positive fallout of that down through the decades, 
as we trained a generation of mathematicians, and scientists, 
all because we found ourselves not competitive in the real 
world in a cold war environment and out of that space 
initiative and everything else. Of course because the--what I 
believe is a national crisis we're in today as it relates to 
energy, we take that a lot easier because the lights are still 
on, and even though gas is more expensive at the pump, it's 
still there and we're adjusting accordingly even though it's 
costing us, you know, lots of jobs out there in the industrial 
sector today, and all that. The new world that we compete in is 
going to be ever demanding.
    We all know those stories, they are real and I'm glad to 
see the President out on the edge of that, pushing it. That's 
extremely important for us. In the context of doing that 
although, I think we have to shape budgets that begin to fit 
that and move us in those directions, and they are bits and 
pieces of all that we're talking about in order to meet the 
challenges laid out by the President in the Competitiveness 
Initiative. I believe that bringing professionals into the 
classrooms will be tremendous assets to our students. Yet the 
system is so rigid to allowing that to happen today that it 
almost, at the very beginning unless we break down some of 
those barriers towards the very initiative that's underway. 
What programs have been or are being implemented to ensure that 
professionals interested in teaching have the training they 
require, and do you believe the President's budget provides 
adequate funding to bring these professionals ultimately into 
the classroom to work alongside the educator in inspiring these 
young people into these different areas that are within the 
Competitiveness Initiative?

                        ADJUNCT TEACHERS PROGRAM

    Secretary Spellings. Thank you for that question. The 
President's budget calls for $25 million to start to seed some 
of this kind of activity, which we call Adjunct Teachers. We 
use this all the time in higher education, especially in 
community colleges, and it's very effective. Typically, people 
who are engaged in their own profession teach part time in 
higher education. Many of these students now, high school 
students, enjoy dual enrollment programs between community 
colleges and high schools, and they are already being served by 
the kind of professionals that you talk about. IBM has 
committed 1,200 engineers and other highly skilled 
professionals to make transitions into the teaching profession, 
so I do think there's an appetite and a willingness out there 
and a need--a dramatic need--for those sorts of competencies. 
We have some models to build on through Troops-to-Teachers, 
Teach for America, and some other programs that have taken mid-
career professionals and helped them become effective teachers. 
But I think the notion is, let's be able to get some of our 
expertise and resources from the broad community around some of 
these 185 day, 10-month contract sort of structures, that we're 
so used to dealing with in education.

             INNOVATIVE HIGH SCHOOL RESTRUCTURING IN IDAHO

    Senator Craig. I had the privilege, Mr. Chairman, of 
walking through a new high school in Idaho during this last 
recess. The largest building in our State from the standpoint 
of an educational institution, 2,200 students. I thought, oh my 
goodness, how can they possibly handle 2,200; surely they must 
be lost in the system, because I was thinking of the old 
models. But I walked into a school with academies, and the 
allowance to actually begin shaping from your freshman year on, 
some core competencies that move you then into community 
colleges, or into University settings. In the junior senior 
year, that nexus with the community college that you had--I 
spent a couple of hours there, spoke with the senior class, and 
walked out with a total different opinion. Or a sense of 
understanding as to these new structures, and in this 
particular school district which is the fastest growing in our 
State, they're building a new high school about every 2 years 
now, they're moving to this concept. They feel they can go to 
larger schools but they allow the student to actually identify 
with a much smaller unit within the school. It's impressive. 
It's happening at other places in the county. Idaho is not 
alone in it certainly, and it makes some very real sense, tied 
to this competitive initiative, and being able to move young 
people out earlier. Those who chose to, to get into that higher 
learning, frankly, can break through the rigidity of the 
current system that says, no, no this is the way we've always 
done it, we control it, so this is the way you're going to do 
it. If it isn't providing us with that level of training and 
talent, then we've got to break through it, and if you can't 
live within it, you get outside of it, I guess, and that's 
starting to happen in parts of Idaho where we have community 
college settings in which they can cooperate. That's a pretty 
exciting concept. But in doing so--and then transitioning them 
forward, there was concern about the Pell Grants and other 
tools to make sure that those students can carry on, and I'm 
looking at this budget concerned about obviously areas like the 
Federal Direct Student Loans and the Federal Family Education 
Loans, and all of those kind of things. Those tools are going 
to be in part a necessary component of any kind of 
competitiveness initiative to move these young people forward.
    Secretary Spellings. I agree with that.
    Senator Craig. Thank you.
    Secretary Spellings. Absolutely, Senator. I think I'd love 
to visit that school, I mean these are places as you said----
    Senator Craig. You want to visit it?
    Secretary Spellings. I would like to.
    Senator Craig. Fine, you'll get an invitation today.
    Secretary Spellings. Good.
    Senator Craig. We'd love to have you out.

                            ADJUNCT TEACHERS

    Secretary Spellings. Establishing the nexus between higher 
education and high school, that can be more efficient and more 
effective as we get these professionals who are working in the 
field, and who have this expertise, because we're frankly going 
to be very challenged to do it other ways.
    Senator Craig. Well, it's an exciting model, and as I say, 
there are many large schools across the country that are 
recognizing that high schools of 2,000, if not restructured, 
lose children.
    Secretary Spellings. Exactly.
    Senator Specter. Thank you very much, Senator Craig. 
Senator Murray.

                         SCHOOLS-WITHIN-SCHOOLS

    Senator Murray. Well, thank you very much Mr. Chairman, and 
Senator Craig, I'm delighted to hear that you went to that 
school. The Gates Foundation has been focusing on schools-
within-schools, with some real successful programs.
    Senator Craig. If you'll let me interrupt. I'm not 
absolutely sure, but it's very possible they're participating 
in this one. Yes.

           ACADEMIC COMPETITIVENESS AND NATIONAL SMART GRANTS

    Senator Murray. Yeah. I agree with the focus on high 
schools. I think it's absolutely critical that we as a Nation 
really find out why we're losing kids at such dramatic rates. 
Those kinds of programs really make a difference. But let me, 
Madam Secretary, talk with you a minute about some of the 
academic competitive grants in the national science and 
mathematics act says to retain talent, the SMART grants. To 
receive those American competitive grants, students have to 
have completed what is called the rigorous secondary school 
program of study. Now I agree, as I said that we have to do 
everything we can to prepare students for the global economy 
they're going to be in. Whether--but I think a student's luck 
in where they attend high school, whether it's Senator Craig's 
or another one, shouldn't determine whether or not the Federal 
Government helps them attend college. CBO estimated that only 
9.9 percent of the Pell eligible students are going to be able 
to take advantage of those academic competitiveness and SMART 
grants in 2007. Now the maximum Pell Grant has not increased 
for 4 years despite as we all know tuition rising at our 
Nation's public colleges by over 7 percent last year. So if the 
$850 billion that those grants cost in 2007 were spent on Pell 
Grants, students would actually receive an additional $200 in 
aid that would have made a tremendous difference. I would like 
to find out from you, how you anticipate judging what 
constitutes a rigorous secondary school curriculum?

                    RIGOROUS HIGH SCHOOL CURRICULUM

    Secretary Spellings. That's a great question and we're 
struggling with that at the Department now. About a week ago, 
we had folks in from the Gates Foundation, from the National 
Governors Association, and from the Council of Chief State 
School Officers to look at and talk about what's the most 
appropriate way to do that while being very respectful of our 
prohibition at the Department of Education for prescribing 
curriculum. I certainly don't want to sit up here and look at 
high school course syllabi and so forth. So we're working on 
that right now. I mean, I think we know things that are widely 
accepted, like Advanced Placement, International Baccalaureate, 
and the State Scholar's program--that 14 States have already 
bought into place, i.e. their determination of a college-ready 
curriculum. For State Scholars this is 4 years of English, 3 
years of math and science, and 2 years of foreign language. 
We'll be announcing another 8 to 12 States that will be joining 
the State Scholars program soon. So States have come to terms 
largely, or are beginning to, with what they believe to be 
college-ready, so that, I hope, will be informative as we look 
at the Academic Competitiveness Grants.
    Senator Murray. Well, I appreciate the goal, but here we 
are in 2007 where less than 10 percent of the students are 
going to be eligible for these grants, and in tight budget 
times it seems to me that using those dollars to help all kids 
get $200 in aid, not just those who are lucky enough to attend 
a high school that works out to have a ``rigorous schedule.'' I 
just think it's something we have to manage. So I'm very 
concerned about a large amount of money funneling to a few kids 
who happen to be in the right high school, with the right 
curriculum, versus us being able to help all students with an 
additional $200 with the same pot of money. So it's just a 
budget issue in my mind. Obviously you've got a program you 
love, and you want to go down that road. But in tight budget 
times we have to say, are we going to help all kids out there, 
or just the ones who are lucky enough to have that somehow 
undefined yet rigorous curriculum.
    Secretary Spellings. Well, it's also obviously our 
responsibility to make sure that we have a college-ready 
curriculum, and this is why we need more Advanced Placement in 
more places, and so forth, making such a curriculum available 
to all kids everywhere.
    Senator Murray. Well, I think it's good to provide 
incentives to high schools to move towards a rigorous 
curriculum, I'm with you on that. But I don't want to see us 
use the kids as a tool. Because in the end they are the ones 
who are not going to be able to go to college based on where 
they went to school. I think it's so important that we provide 
that opportunity, but it's a philosophical debate.

                              HEA TITLE IX

    I have limited time. I wanted to ask you about Title IX. On 
March 17, the Department released a new guidance on the 
interest prong of the three-part test which schools are using 
to show their compliance with Title IX. As you are aware, I 
have some really grave concerns about this new guidance, 
because I believe it sets a new low bar for compliance with the 
Federal Civil Rights Law. Schools would now be allowed to use 
an email survey to show their compliance with Title IX. The 
school would only have to send that survey to women. So, a lack 
of response at our universities where kids already have a lot 
to do, and may just say to heck with that, seems to me a very 
poor way to be determining compliance with Title IX. Now I know 
that it's used--surveys are used as part of compliance, but 
it's the sole means to making sure whether a school complies or 
not, to me seems really wrong headed.
    Now as you know there's a lot of concern over this new 
guidance, and there's a bipartisan group of Senators on the 
subcommittee who have asked for a report on the guidance and 
the use of surveys and I wanted to find out from you this 
morning what the status is of that?
    Secretary Spellings. We'll be completing that next month. I 
believe you all gave us a deadline for March sort of timeframe 
there. We will be completing it then. I do want to note that 
we've not had any complaints about the survey aspect yet, and 
frankly as you know it is a legitimate prong to ascertain 
interest. This is prong three.
    Senator Murray. But the sole prong is a problem.
    Secretary Spellings. We have about 116 schools around the 
country that do that now. But your report is due March 17, and 
we intend to meet that deadline.
    Senator Murray. Okay, well there's a lot of confusion on 
behalf of schools about the guidance. I want to know what your 
department is doing regarding technical assistance to schools 
on the guidance of that?
    Secretary Spellings. You have recently confirmed Stephanie 
Monroe as AS for OCR. I've had a vacancy in that job for a long 
time, and we are providing technical guidance around that 
issue. I'm a mother of two daughters, I'm very committed to 
their opportunities as well, and so----

                           PREPARED STATEMENT

    Senator Murray. Well, we all are. But if we base compliance 
on an e-mail survey to women in college expecting that their 
response back as students is going to decide whether or not a 
school is compliant, I think that is just not a very smart way 
to go. I'm going to continue to work with other likeminded 
Senators to make sure we don't somehow use that information to 
take away the ability of many young women in this country to be 
able to access sports in colleges.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    Secretary Spellings, thank you for coming today to talk with us 
about the President's fiscal year 2007 budget request for the 
Department of Education. I want to take this opportunity to say that I 
have always believed that the federal budget is more than just a 
compilation of numbers. Rather, it is a collective statement of the 
values and priorities of our nation. Looking at the figures included in 
the President's fiscal year 2007 budget request for the Department of 
Education--which is the largest cut in federal education funding in 26 
years--I have to say that I question the value that the President is 
placing on educating our nation's youth this year.
    As a country, we are required to articulate and defend our values 
and priorities, particularly as we undergo the annual budget process. 
While I share the President's stated commitment to preparing our nation 
and workforce for the competition of the 21st century, I am 
disheartened to see that his rhetoric about the importance of leaving 
no child behind is not matched by the budget numbers this 
administration put forward in its fiscal year 2007 request.
    I want to remind my colleagues that what we do in the next few 
weeks will affect us--and the American people--for a long time. The 
budget decisions we make now will either empower us--or tie our hands--
when we turn to determining funding levels in this appropriations 
committee later this year. That is why I must say I strenuously object 
to the request put forward by the President.
    While it's true that the President's budget includes increased 
dollars for math and science education, these funds come at the expense 
of cuts or elimination to other important programs. I view new 
initiatives in math and science as complements to, but in no way 
substitutions for, the other federal education investments we have made 
over the past 40 years. While science and math competence are 
undoubtedly a critical piece of what our students need to compete 
globally, it cannot come at the expense of helping disadvantaged 
students succeed academically, investing in our high schools, and 
ensuring our college students have the financial means to attend 
postsecondary education.
    I am particularly disheartened that the administration continues to 
fall behind in meeting its commitments under the No Child Left Behind 
Act. The President's fiscal year 2007 request does not include any 
increases in NCLB's cornerstone program, Title I. The administration's 
decision to recommend level funding--at a time when requirements and 
accountability provisions for our schools continue to grow--essentially 
asks our schools to do more with less resources. This inconsistent 
messaging is disingenuous and unfair. What's worse, our students, 
parents, teachers and schools suffer as a result.
    I also want to express my concern about the High School Reform 
package the President is promoting. As you know, I have been an 
advocate for focusing federal education resources to our nation's high 
schools. That is why last year I introduced my Pathways for All 
Students to Succeed (PASS) Act, to provide targeted resources to our 
nation's high schools. The PASS Act would help America's teenagers 
graduate from high school, go on to college, and enter the working 
world with the skills they need to succeed.
    While I appreciate the President's interest in high school reform, 
the reality is that he elected to pay for these reforms by cutting 
important programs. The $1.475 billion he is proposing for his high 
school package doesn't come close to replacing the money we currently 
spend on the 42 programs, including vocational and technical education, 
GEAR UP and TRIO, proposed for elimination. At a time when 3,000 
students drop out of high school each and every school day and when 
half of our nation's African American and Latino students do not 
complete high school, we need to be doing more, not less, to make our 
high schools places where all students can learn.
    In addition to stemming the tide of high school dropouts, we must 
assist students in the transition from high school to college by 
providing financial resources to facilitate access to higher education. 
Yet recently the federal government cut $12.7 billion from student 
loans that help low- and middle-income families pay for college. This 
decision, during a year in which tuition and fees increased by 7.1 
percent for four-year public universities and 5.9 percent for private 
universities, does not reflect our national priorities. In the same 
vein, the value the President purports to place on higher education is 
not reflected in his budget, which level-funds the Pell Grant program 
for the fourth year in a row.
    As we work together in the next few weeks to prepare the budget 
resolution, I will do my best to ensure that the values and priorities 
of our nation and my state of Washington are reflected in the numbers 
to which we will hold ourselves. As a policymaker and parent, I know 
that American competitiveness demands a more comprehensive approach to 
education. We must match our rhetoric with the necessary resources to 
support all of our students, at all grade levels, in all subject areas. 
Our children--and our country--deserve nothing less.
    Thank you.

                  PROPOSED GEAR UP PROGRAM ELIMINATION

    Senator Specter. Thank you, Senator Murray. Madam 
Secretary, what participation did you have in the elimination 
of the program known as ``GEAR UP'' that's been in existence 
for about 7 years? On the ratings by OMB, they say ``GEAR UP'' 
is based on successful models for increasing the college 
enrollment rate of at-risk students. Initial program results 
suggest that grantees have been more successful in increasing 
the percentage of students taking a more challenging course 
load, better preparing these students for future college 
enrollment.
    It was an idea advocated by Congressman Chaka Fattah, who 
has had a lot of experience in government in Philadelphia, 
where there are tough schools with a lot of dropouts and a lot 
of students with problems. It has been a program which has been 
funded principally out of the Senate that I have spoken about 
repeatedly. Let me ask you a two-part question. What do you 
think the chances are that ``GEAR UP'' is going to be dropped 
by the Congress? Second, what did you have to do with dropping 
it, if anything?
    Secretary Spellings. Well, Senator, first let me say that 
you know ``GEAR UP'' was invented in Houston, Texas, I mean 
when President Bush was Governor, we were strong supporters of 
it.
    Senator Specter. Does President Bush know that?
    Secretary Spellings. Yes. President Bush, then Governor 
Bush.
    Senator Specter. Does President Bush know it's being 
dropped?
    Secretary Spellings. I presume he does.
    Senator Specter. I'm going to tell him.
    Secretary Spellings. I presume he does.
    Senator Specter. Have you told him?
    Secretary Spellings. Yes, sir. But let me tell you what 
his----
    Senator Specter. No, no. Have you--well you can tell me, 
but first tell me, have you told him?
    Secretary Spellings. Have I told him specifically ``GEAR 
UP'' is not in the budget?
    Senator Specter. Yes, ma'am, specifically. Have you told 
him that ``GEAR UP'' has been dropped?
    Secretary Spellings. I don't believe that I have told him 
that specifically.
    Senator Specter. Do you know if anybody has told him that 
specifically?
    Secretary Spellings. I do not.
    Senator Specter. Get the President on the phone.
    Secretary Spellings. I certainly will tell him.

                        START OF GEAR UP PROGRAM

    Senator Specter. He calls me with some frequency when he 
wants Supreme Court Justices confirmed. Next time he calls, I'm 
going to parry him with this question about ``GEAR UP''; I 
didn't know it was started in Houston.
    Secretary Spellings. By Jim Ketelsen. The former CEO of 
Tenneco.
    Senator Specter. The first question I'm going to ask him 
is, Mr. President, do you know ``GEAR UP'' was started in 
Houston? Second question I'm going to ask him is, do you know 
that ``GEAR UP'' has been dropped? The third question is, do 
you know the Secretary of Education didn't personally tell you 
that it was being dropped?
    Secretary Spellings. You can tell him that.
    Senator Specter. Okay. It's your turn.

                     HIGH SCHOOL REFORM INITIATIVE

    Secretary Spellings. But let me say this, the President's 
philosophy here around this high school reform issue is that 
you need a block grant kind of program. That we ought to gather 
secondary school resources into a $1.5 billion title that we're 
saying would get results. That we shouldn't sit up here and 
say, here's how you should get results. Now I fully believe 
that in Houston, Texas, in Philadelphia, and places where these 
programs are working well, and effectively, they will continue 
to do those. I can't say that that's necessarily true in the 
aggregate. Where they're going to be effective they'll be 
maintained. I'm confident of that. The President's philosophy--
--
    Senator Specter. How will they be maintained without 
funding?
    Secretary Spellings. They will be paid for then out of the 
high school initiative.
    Senator Specter. So you rob Peter to pay Paul, which is 
what I said on my last round of questions, I'll probably say it 
in my fourth round, too.
    Secretary Spellings. I mean, I guess you could look at it 
that way. We're gathering resources out of silos, out of 
specific prescribed programs.
    Senator Specter. So you think really, you ought to keep 
``GEAR UP'' but under another name?
    Secretary Spellings. No. I'm saying that States and local 
school districts ought to have the opportunity to design and 
choose programs as they see fit, including GEAR UP, Vocational 
Education, or others.
    Senator Specter. But, when it's been a successful Federal 
program, and has all the backing from the Members of the House 
and Senate, why submit a budget which cuts it?
    Secretary Spellings. Well, I think the President believes 
that successful programs will be invested in with Federal 
dollars and maintained and enhanced at the State and local 
level.
    Senator Specter. Federal programs will be invested with 
Federal dollars and maintained, and enhanced at the State and 
local level?
    Secretary Spellings. That where--in Philadelphia where this 
is working well, they will use their high school resources to 
invest in ``GEAR UP'' and they'll probably use State and 
local----
    Senator Specter. What resources? They're strapped to the 
edge now.
    Secretary Spellings. Under the high school reform block 
grant, if you will, the $1.5 billion in Federal funds that 
would be invested in high school reform, this program would 
absolutely be an allowable purpose.

        FISCAL YEAR 2006 FUNDING LEVEL OF PROPOSED TERMINATIONS

    Senator Specter. Well, since that will happen I can rest 
easy seeing it cut, I guess. Except that I won't. Senator 
Harkin, why don't you do that on your time. Harkin wisely 
points out. What was it you wisely pointed out?
    Senator Harkin. That their reform package is $1.5 billion, 
but the total amount that gets cut out of all these other 
programs is $2.1 billion.
    Senator Specter. How about that, Madam Secretary?
    Secretary Spellings. Well, I think it's more like the $1.5 
billion that we have gathered up. I don't know what all the 
elements are that are in the $2 billion estimate that you have, 
Senator Harkin, but it depends on what's on the list, I guess, 
is the short answer.
    Senator Specter. Madam Secretary, you can see the smooth 
coordination. I frequently use the expression that when we 
change chairman and ranking member that it's a seamless passage 
of the gavel, which I now undertake to do, so that he can 
follow up on his Charlie McCarthy, Edgar Bergen question that I 
asked on his behalf. Senator Harkin.
    Senator Harkin. Wait a minute. Which one am I?
    Senator Specter. You're Edgar Bergen, I can tell you that.
    Senator Harkin. Okay, well, to follow up on this.
    Senator Specter. Secretary Spellings is too young to really 
know who either is.
    Secretary Spellings. I was just going to say you're dating 
yourselves. But I wasn't going to say anything.
    Senator Harkin. But to follow up on it, Madam Secretary. I 
understand the High School Initiative program is at $1.475 
billion. But there are 40 some programs that were eliminated. 
All the TRIO programs, Talent Search, Upward Bound, Smaller 
Learning Communities, that's $2.1 billion. So you've taken away 
$2.1 billion that goes out to these high schools, and saying 
now, here's $1.5 billion.

                     HIGH SCHOOL REFORM INITIATIVE

    Secretary Spellings. Here's the difference. Part of the 
Perkins Vocational Education Program goes into community 
colleges and is in the postsecondary education environment, if 
you will, and so the high school reform proposal at $1.5 
billion reflects the investments that are currently going to K-
12 schools. The difference, the additional funds, can be found 
in community colleges, which is obviously higher education.
    Senator Harkin. Oh, so you're saying that Talent Search, 
Upward Bound and all those programs are now shifted somehow to 
community colleges?
    Secretary Spellings. No, sir. I'm saying that the Perkins 
Voc Ed Program, some of those resources end up in community 
colleges, some end up in high schools. Trio, GEAR UP, those 
sorts of programs that are high school programs, would, could 
be funded from the $1.5 billion high school side of it.
    Senator Harkin. Okay. I understand what you're saying now. 
Please understand what I'm saying, that you add up all those 
cuts in those programs, it's $2.1 billion. You replace that 
with $1.475 billion for your high school initiative. So when 
you say that schools, well, if they want to continue the 
successful programs, they could. Well, I guess what I would ask 
you to submit to this committee is which of these, is it 42 
programs, 40 some, I forget what it was, that you're asking to 
be eliminated--I mean, which of those are you saying are not 
successful?
    Secretary Spellings. Well----
    Senator Harkin. Which of them are not successful? Please.
    Secretary Spellings. We have a PART process that rates the 
programs. I certainly could give that PART list for the 42 
programs and will. The difference I want to say on the $2 
billion worth is that, in the Perkins Program, part of those 
resources go to community colleges, so the high school 
initiative at $1.5 billion is, it reflects the resources that 
are spent in K-12 schools.
    [The information follows:]

 OMB PART Ratings for Programs Proposed for Termination in the Fiscal 
                        Year 2007 Budget Request

    OMB developed the Program Assessment Rating Tool (PART) in order to 
assess and improve program performance so that the Federal Government 
can achieve better results. Ratings are based on questions in four 
critical areas--purpose and design, strategic planning, management, and 
results and accountability. The answers to questions in each of the 
four areas result in numeric scores, which are combined to achieve an 
overall qualitative rating that ranges from Effective, to Moderately 
Effective, to Adequate, to Ineffective. Programs for which we have 
insufficient evidence from either performance data or rigorous program 
evaluations cannot be assessed and receive a PART rating of Results Not 
Demonstrated. PART assessments help our Department and OMB improve the 
performance of Federal programs by identifying flaws in program design, 
management, or implementation that undermine effectiveness. PART 
assessments also help inform funding decisions, but a program's PART 
rating would not dictate budget policy. For example, the Administration 
might not request funding for a program for which there is not a clear 
Federal role or which is duplicative of other programs, even if it is 
rated Effective or Moderately Effective.
    The following chart shows whether programs proposed for termination 
in the fiscal year 2007 budget request have been assessed using the 
PART, and if assessed, the year of the assessment and the rating the 
program received.

    OMB PART FINDINGS FOR EDUCATION DEPARTMENT DISCRETIONARY PROGRAMS
              PROPOSED FOR TERMINATION IN FISCAL YEAR 2007
------------------------------------------------------------------------
             Program                Year assessed         Rating \1\
------------------------------------------------------------------------
TRIO Talent Search..............  2003/2005........  Moderately
                                                      Effective
Comprehensive School Reform.....  2002.............  Adequate
GEAR UP.........................  2003.............  Adequate
Projects with Industry..........  2004.............  Adequate
Even Start......................  2002.............  Ineffective
Safe and Drug-Free Schools State  2002.............  Ineffective
 Grants.
TRIO Upward Bound...............  2002.............  Ineffective
Vocational Education State        2002.............  Ineffective
 Grants.
B.J. Stupak Olympic Scholarships  2004.............  Results Not
                                                      Demonstrated
Byrd Honors Scholarships........  2004.............  Results Not
                                                      Demonstrated
Educational Technology State      2005.............  Results Not
 Grants.                                              Demonstrated
Leveraging Educational            2004.............  Results Not
 Assistance Partnership.                              Demonstrated
National Writing Project........  2004.............  Results Not
                                                      Demonstrated
Parental Information and          2004.............  Results Not
 Resource Centers.                                    Demonstrated
Smaller Learning Communities....  2005.............  Results Not
                                                      Demonstrated
Teacher Quality Enhancement.....  2003.............  Results Not
                                                      Demonstrated
Tech-Prep State Grants..........  2002.............  Results Not
                                                      Demonstrated
Academies for American History     ................  Not Assessed
 and Civics.
Arts in Education...............   ................  Not Assessed
Civic Education.................    ...............  Not Assessed
Close Up Fellowships............    ...............  Not Assessed
Demonstration Projects for          ...............  Not Assessed
 Students with Disabilities.
Elementary School Counseling....    ...............  Not Assessed
Excellence in Economic Education    ...............  Not Assessed
Exchanges with Historic Whaling    ................  Not Assessed
 and Trading Partners.
Federal Perkins Loans               ...............  Not Assessed
 Cancellations.
Foundations for Learning........    ...............  Not Assessed
Javits Gifted and Talented......    ...............  Not Assessed
Mental Health Integration in        ...............  Not Assessed
 Schools.
Ready to Teach..................    ...............  Not Assessed
Safe Drug-Free Schools Alcohol      ...............  Not Assessed
 Abuse Reduction.
School Dropout Prevention.......    ...............  Not Assessed
School Leadership...............    ...............  Not Assessed
Star Schools....................    ...............  Not Assessed
State Grants for Incarcerated       ...............  Not Assessed
 Youth Offenders.
Thurgood Marshall Legal             ...............  Not Assessed
 Educational Opportunity Program.
Underground Railroad Program....    ...............  Not Assessed
Vocational Education National      ................  Not Assessed
 Programs.
VR Migrant and Seasonal            ................  Not Assessed
 Farmworkers.
VR Recreational Programs........   ................  Not Assessed
VR Supported Employment State      ................  Not Assessed
 Grants.
Women's Educational Equity......   ................  Not Assessed
------------------------------------------------------------------------
\1\ Reflects the most recent rating for programs that were reassessed.

NOTE: A total of 74 ED programs have been assessed since 2002 using the
  Program Assessment Rating Tool (PART); additional programs will be
  rated in the future.

    Senator Harkin. So in your opinion the $2.1 billion and 
$1.5 billion that's just money that normally goes to community 
colleges, is that right?
    Secretary Spellings. Yes, sir.
    Senator Harkin. Well, I'll have to take a look at that. I'm 
not certain about that one but give me some documents on that 
and I'll----
    Secretary Spellings. I'll definitely do that.
    Senator Harkin. Let me ask you, but one thing I did want to 
cover is this what's happening with special education. I said 
earlier it goes from 19 percent to 18 percent, now down to 17 
percent and, right, but here's the real problem, as bad as that 
is, there's another hit coming to these schools outside your 
jurisdiction but you should be cognizant of it, Medicaid pays 
for the cost of coverage services for eligible children with 
disabilities. School districts can be reimbursed by Medicaid 
for transportation costs they incur in providing services if 
this works. The administration wants to prohibit schools from 
getting reimbursed for transportation and in fiscal year 2007 
schools are expected to receive $615 million from Medicaid for 
that purpose. If this change goes through then they're going to 
have to pay the $615 million in transportation costs 
themselves. So while you might say that there's been a slight 
increase in IDEA funding from $10.583 to $10.683, a $100 
million increase, still not keeping up with inflation or 
anything, there's going to be another cut from Medicaid 
reimbursement for these kids. Where are these schools going to 
get that $615 million, $650 million, $615 million, can't read 
it, $615 million for transportation? Did I make myself clear?
    Secretary Spellings. You did. Senator, as you know, those 
are reimbursements through HHS and I'm sure you'll discuss that 
with Secretary Leavitt. My understanding is, those are places 
where they found a lot of fraud and abuse with respect to those 
reimbursements and, you know, with respect to IDEA funding 
overall we've had a 68.5 percent increase in funding since 2001 
and, you know, we continue investments on the education side 
for special education. With respect to the transportation 
funding, my understanding is that it's been a place where 
there's been some fraud and abuse and that that needs to be 
curtailed.
    Senator Harkin. I'm all for cutting fraud and abuse but 
when you disallow the whole thing, I mean, you're saying that 
every dollar's being abused. I mean, you're not saying it----
    Secretary Spelling. I'm just not very familiar with the 
particulars, since we don't run that program.
    Senator Harkin. You're not saying that but OMB or the 
administration's saying that and since there's a close 
correlation here between the two, between you and HHS on this, 
I mean, somehow we've got to bring that together because if we 
cut the $615 million COLA, that's going to be a big hit.

                 ESEA TITLE I PROPOSED FUNDING DECREASE

    Title I, let me just say one thing about Title I. Right now 
29 States will get less Title I funds under the budget, than 
they did last year. My State, Iowa, was one of 15 States that 
will get less Title I funding than they did 3 years ago in 
fiscal year 2004. On the district level it's even bleaker. This 
fiscal year was the third year in a row that most districts got 
less Title I funding than they did the year before. Fiscal year 
2007 will be the fourth straight year. In my State, two-thirds 
of Iowa districts got less Title I funding this year than they 
did 3 years ago. So how can you say you're giving schools 
enough money for No Child Left Behind when our budget once 
again cuts Title I funds the most to the districts?
    Secretary Spelling. Well, as you know, under Title I the 
distribution formulas follow the kids and the poorest kids as 
they move around and as those populations shift. There are also 
obviously States who are getting additional Title I resources 
owing to the distributional mechanics of Title I funds 
following those poorest, neediest kids.

               SCHOOLS CATEGORIZED AS NEEDING IMPROVEMENT

    Senator Harkin. I'm told there are about 11,000 schools in 
this country that have been designated in need of improvement, 
is that about right?
    Secretary Spellings. That's sounds about right----
    Senator Harkin. 11,000.
    Secretary Spellings [continuing]. That sometimes gets 
characterized as failing schools. I think, you know, we all 
know that there are schools that need improvement when half the 
minority kids aren't getting out of high school. We have work 
to do with special ed students and limited English speakers and 
so on and so forth, so, it doesn't surprise me that 11,000 
schools need improvement.

                          ESEA TITLE I FUNDING

    Senator Harkin. Yeah, but again how are we going to help 
these schools when we're cutting Title I funding? I mean, you 
say it follows the kids around and I know poverty's gone up in 
some areas but I can tell you we still have, I suppose, kids in 
Iowa and rural areas and places like that that are getting cut 
out, because it's almost like you're assuming there's a static 
level of poor kids just goes to this level and they shift 
around but it always stays static, I mean the total number 
stays static. That's not true. I don't think there's any 
figures that show that. The number of poor kids in this country 
has gone up.
    Secretary Spellings. Right. That's why we supported 
increases in Title I for the poor through the course of the 
present administration.
    Senator Harkin. Well, we're getting less Title I money.
    Secretary Spellings. I'm talking about in the entirety of 
the President's term, Title I funding is up about 45 percent.
    Senator Harkin. Oh, I see. So it went up a couple of years 
in a row. Now we can sit back and we don't have to increase it 
any more.
    Secretary Spellings. Well, I'm not suggesting that we can 
sit back by any stretch but----
    Senator Harkin. We hear that when we double the funding for 
NIH and we got it up there, now we say, well they did that, now 
we don't have to worry any more and we just sit back. I think 
what we were doing in the first couple of years is trying to 
play catch-up ball in funding these kids in Title I. That 
doesn't mean it's remained static and I just think the program 
funds Title I.
    Secretary Spellings. Well, we've also called for $200 
million for School Improvement. You talked about the 11,000 
schools.
    Senator Harkin. I know about the $200 million. I just 
divide that out to 11,000, it's about $20,000 per district.
    Secretary Spellings. Well, I think we can learn from each 
other. I think States will be doing more systematic and 
systemic work at a State level that will leverage some of those 
resources.
    Senator Harkin. Our time is up. Madam Secretary, you said 
quite frankly in your opening statement that the Federal 
Government's role is providing help to States for under-
privileged, poor kids and kids with disabilities. Well, this is 
it, right here, and I think we're shirking our responsibility 
in that area to provide that kind of help to the States. Thank 
you.

               HIGH SCHOOL DROPOUTS--THE SILENT EPIDEMIC

    Senator Specter. Thank you, Senator Harkin. One final 
inquiry and, Madam Secretary, we're having votes about to 
begin, force back votes on the PATRIOT Act. The publication of 
The Silent Epidemic is out on dropouts--I see you nodding in 
the affirmative--thanks to the Gates Foundation on funding it, 
and it shows that about 3.5 million young people between the 
ages of 16 and 25 have dropped out of high school, were not in 
school in the year 2003, the most recent year in which such an 
estimate is available. What in the budget is being directed to 
that major problem?

               ADDRESSING THE HIGH SCHOOL DROPOUT PROBLEM

    Secretary Spellings. Well, Senator, a few things. One, as 
that study observes, and I'm meeting with one of those authors 
of the report this afternoon, I think, of the things we know is 
that kids drop out because they don't have the necessary 
reading and deciphering skills, particularly reading skills, to 
do high-school-level work. That's why we support the Striving 
Readers Initiative for a $100 million, so we can take some of 
our reading research and extend it in the middle schools and 
get these kids caught up so that they can do more rigorous 
work. The other thing, as the report observes, and I think it 
speaks to boredom and a lack of rigor sometimes in high school, 
is that many of the students that drop out, you know, are 
passing. They are kids that are effective in attending school 
and they're just completely disengaged and tend not to find it 
very satisfying. So I think if we expand Advanced Placement, if 
we expand dual enrollment, and provide some of these things 
that are more engaging and more interesting and more rigorous, 
and more relevant to kids--I think those are some things we can 
do to guard against dropouts.
    Senator Specter. What do you think the prospects are of 
ameliorating that problem?
    Secretary Spellings. Well, I think it's, you know, 
obviously going to be a journey. I don't think this is 
something that happens overnight. I think we need to know more. 
This is why the President has called for enhanced 
accountability in high schools. We don't know very specifically 
as policy-makers what is it about high school that's working 
and not working and for whom. Is it reading? Is it rigor? Is 
it, you know, disengagement? Is it a lack of vocational----
    Senator Specter. How do you propose to find out?
    Secretary Spellings. Well, what the President has called 
for is additional accountability, more measurement in high 
school. We only test in one grade in high school. Typically 
States have elected to do that in the 10th or the 11th grade. 
So after 8th grade we lack information about what the state of 
high schools really is and an ability to parse that down for a 
policy tool.
    Senator Specter. Where the President has called for it, 
what has the response been?
    Secretary Spellings. Many States have put high school 
assessments in place. I would say half or so have a full 
complement of assessment through high school. That's the 
Governor's----

              DEPARTMENT'S COMMENTS ON THE SILENT EPIDEMIC

    Senator Specter. Madam Secretary, we're going to have to 
recess here in a moment but what I would ask you to do is to 
give us your evaluation, your Department's evaluation of this 
report on dropouts and what is currently being done and what 
you think ought to be done. That's a gigantic problem which we 
really ought to address.
    Secretary Spellings. I agree.
    [The information follows:]

                            SCHOOL DROPOUTS

    "The Silent Epidemic: Perspectives of High School Dropouts,'' a 
March 2006 report by Civic Enterprises in association with Peter D. 
Hart Research Associates for the Bill and Melinda Gates Foundation, is 
based on a series of focus group interviews conducted with young people 
aged 16-25 who identified themselves as high school dropouts from 
public schools in large cities, suburbs, and small towns. As the report 
notes, the study's purpose was to approach the dropout problem from the 
perspectives of the former students themselves, to better understand 
the lives and circumstances of students who drop out of high school and 
to help ground the research in the stories and their reflections.
    Though the study is primarily anecdotal and was not designed to be 
nationally representative, its findings are consistent with the 
Administration's emphasis on the need for high school reform in the 
2006 and 2007 President's Budget proposals, as well as the effort to 
bring more rigor to the high school curriculum through such initiatives 
as the expansion of support for Advanced Placement courses.
    For example, fully one-third of those surveyed said that they 
dropped out of high school because they were ``failing in school,'' and 
45 percent said they lacked academic preparation for the challenges of 
high school. In response, The Silent Epidemic recommended the 
development of ``early warning systems'' to help identify students at 
risk of failing in school, the provision of intensive assistance to 
struggling students, and research on what works in high school. The 
Administration's $1.5 billion High School Reform initiative, first 
proposed in the President's 2006 Budget, would address each of these 
recommendations. Grantees would use test scores of incoming high school 
students to identify those most at risk of not meeting State standards 
and potentially dropping out, develop individualized performance plans 
to meet student needs, and support research on specific interventions 
and strategies for improving student achievement in high school.
    The 2007 request also includes two other proposals specifically 
targeted to the needs of students like those discussed in The Silent 
Epidemic. First, a $70 million increase for the Striving Readers 
program would significantly expand the development and implementation 
of research-based interventions to improve the skills of teenage 
students who are reading significantly below grade level. And a new, 
$125 million Math Now for Middle School Students initiative would 
support research-based math interventions in middle schools.
    In addition, the proposed $90 million increase to expand the 
availability of Advanced Placement and International Baccalaureate 
programs in schools with large populations of low-income students would 
help ensure that such students are able to prepare for and successfully 
complete challenging, college-level curricula.
    Finally, the Department already has played a key leadership role in 
working with the National Governors Association (NGA) to reach a common 
definition for calculating high school graduation rates. In particular, 
the National Governors Association also agreed on the use, while States 
ramp up their own capacity for a long-term solution, of an Average 
Freshman Graduation Rate, an interim calculation developed by the 
Department to provide comparable State-level graduation data.
    The Department believes that momentum is building for a serious, 
nationwide effort to improve the performance of our high schools. 
President Bush has provided strong leadership in this area for the past 
two years, and The Silent Epidemic should contribute to that momentum 
and help persuade Congress that the time for action is now.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Specter. We have received the prepared statement of 
Senator Thad Cochran which will be placed in the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I welcome Secretary Spellings to the subcommittee and 
look forward to her testimony about the fiscal year 2007 Budget 
proposal for the Department of Education.
    I first want to thank the Secretary for her extraordinary efforts 
and those of her staff following Hurricane Katrina. The first questions 
our school superintendents in Mississippi had as they began recovering 
were about being able to comply with the No Child Left Behind standards 
and regulations. The Secretary showed understanding and compassion for 
the difficulties faced by these administrators who still are simply 
trying to get schools back in operation and students back in their 
classrooms. Her actions to waive and provide flexibility under these 
trying circumstances are greatly appreciated. Her visits to Southaven, 
Pass Christian, and Jackson and those of the Assistant Secretary for 
Elementary and Secondary Education, Henry Johnson to Biloxi and others 
to my State have been well received and again, appreciated. An 
especially helpful gesture to my staff was detailing Beverly Ward, a 
Department employee here in Washington, to my Mississippi Gulf Coast 
office. She is still there, and has helped to provide coordination, 
communication, and a sense of comfort to those in both K-12 and higher 
education. Thank you very much for that assistance, Madam Secretary.
    While the overall budget for the Department of Education is $2.2 
billion less than last year, I am happy to see the budget proposal 
includes continuation and even some increases in important programs 
such as, Title I grants to schools for disadvantaged students this is 
especially important in my State; an increase of $100 million for 
Special Education grants; continuation of Ready to Learn Television; 
and a $2 million increase in the Foreign Language Assistance Program 
grants to schools.
    The budget is challenging again this year, and the President has 
proposed a number of reductions and eliminations that include programs 
that have proven to be popular and successful, so we will work to find 
a consensus agreement on what and at what amounts programs should be 
funded. I note for example, the National Writing Project, Arts 
Education, Gifted Education, and Civic Education are among the proposed 
program eliminations. I'll be working with you, Mr. Chairman, in an 
effort to ensure those programs are continued.
    We will discuss the details of these programs over the next few 
months. As always, we begin the process of the appropriations cycle 
with a number of competing interests: those from the administration, 
members of this Committee, other Senators, and the members of the 
House. We will work to accommodate as many of those priorities as 
possible, and come to decisions as a committee that will reflect what 
we ascertain as the best course of action.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Specter. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Arlen Specter

                  AMERICAN COMPETITIVENESS INITIATIVE

    Question. The budget proposes to strengthen math and science 
achievement of K-12 students through a new $380 million American 
Competitiveness Initiative. I am a co-sponsor of S. 2198, which 
addresses many of the same issues identified in this Initiative. My 
concern is that this worthwhile Initiative is funded through reductions 
in programs that many members of Congress support. Can you explain how 
this budget will accommodate both this new initiative and the other 
priority programs of various members of Congress?
    Answer. We very much appreciate the strong support that you and 
other Members of the Senate have shown for our efforts to improve math 
and science education, as shown by the very similar goals of S. 2198 
and the ACI. As for your concerns about funding the ACI proposals, I 
would point out that at seven-tenths of 1 percent of our discretionary 
budget, the $380 million request for the ACI represents a modest, 
targeted approach to improving math and science education. The Congress 
should be able to finance this initiative by reducing funding for less 
needed or less effective programs. I understand very well that trade-
offs will be required by the Congress to fund the ACI, because we made 
those very same trade-offs in preparing our 2007 request. At the same 
time, we know that in negotiating the 2006 appropriations bill, your 
Subcommittee demonstrated a willingness to balance funding for priority 
programs with reductions and eliminations in other activities. We hope 
to work with you to achieve that same kind of funding discipline for 
2007, and our request includes many examples of programs that could be 
reduced or eliminated to pay for new initiatives like the ACI.

                         FEDERAL PERKINS LOANS

    Question. Your budget includes $664 million in spending that is 
offset by the recall of the Federal contribution to the Perkins Loan 
program. During last year's session, the House and Senate Authorizing 
Committees agreed to extend the Perkins Loan program, not phase it out, 
as your budget assumes. Can you tell me how my subcommittee should 
make-up for the fact that this $664 million offset is not a viable 
mechanism for additional spending proposed in your budget request?
    Answer. The administration continues to believe needy students 
would be better served by redirecting Perkins Loan funds to more 
broadly available student aid programs, such as the Pell Grant, Federal 
Family Education Loan (FFEL), and Direct Loan programs. With the number 
of Perkins Loan institutions declining from 3,338 in academic year 
1983-84 to 1,796 in 2003-04 and with only 3 percent of students 
enrolled in postsecondary education receiving Perkins Loans each year, 
the Administration believes the Federal share of funds held by this 
small group of institutions would be more effective if used in a way 
that serves all eligible students regardless of institution.
use of title i school improvement funds for comprehensive school reform
    Question. In the last two Department of Education Appropriations 
Acts, the conferees have included language in the statement of the 
managers which encourages the Secretary to notify States of a priority 
that they should place on the awarding of funds from the 4 percent 
school improvement. Can you explain what actions your Department has 
taken to comply with this language?
    Answer. On March 9, 2005, the Department sent an e-mail to Title I 
State directors to notify them of the provision in the fiscal year 2005 
appropriations report language and to inform them of the conditions 
that must be met for a State educational agency to use Title I school 
improvement funds for comprehensive school reform (CSR) projects. A 
Department official also discussed the directive at the Title I State 
directors' meeting last year.
    In addition, the Department has hosted three regional meetings of 
State Title I directors and State CSR directors to talk about capturing 
the lessons learned from CSR, building bridges between Title I and CSR, 
and leveraging statewide systems of support to disseminate information 
learned through CSR.
    The Department will hold a meeting this spring focused on building 
State capacity to improve schools using CSR and Title I to 
institutionalize what has been learned about working with high-
performing, high-poverty schools. At the meeting Department staff will 
discuss the fiscal year 2006 report language about using Title I school 
improvement funds to support CSR projects.

       COMPREHENSIVE SCHOOL REFORM AS SCHOOL IMPROVEMENT STRATEGY

    Question. Given that one rationale for the elimination of the 
Comprehensive School Reform program was that States could use funds 
under their 4 percent set asides for the same activities, do you have 
any evidence that States have made or will make subgrants that support 
comprehensive school reform activities in school districts, and if not, 
why not?
    Answer. We do not yet have any evidence, either from evaluation 
data or other reports, that States or school districts are using 
comprehensive school reform as part of their school improvement 
strategy. In part, this may reflect the progressive nature of the No 
Child Left Behind Act's (NCLB) school improvement requirements, which 
gradually move from school improvement plans in the first 2 years to 
replacement of curricula or staff under corrective action to 
alternative governance during restructuring. Comprehensive school 
reform generally represents the kind of thoroughgoing, fundamental 
change called for under corrective action and restructuring and, thus, 
may be adopted more frequently as increasing numbers of schools are 
subjected to these more stringent improvement measures.
    Also, while the school improvement requirements in NCLB are fairly 
prescriptive, they do not specifically mention comprehensive school 
reform as an improvement strategy. States and districts naturally look 
to the statute for guidance as to what they must do to support schools 
in the various stages of improvement, and will tend to adopt the 
specific remedies found there.
    Finally, comprehensive school reform is intensive and time-
consuming and requires considerable technical assistance from States 
and school districts that have been focused in recent years on overall 
implementation of NCLB. As States establish and strengthen their 
statewide systems of support for LEA and school improvement, they are 
likely to gain greater capacity to support activities like 
comprehensive school reform. The President's School Improvement Grants 
proposal would support this kind of evolution in State-level 
improvement capabilities.

                  TITLE I SCHOOL IMPROVEMENT SET-ASIDE

    Question. In the fiscal year 2007 budget request, you have proposed 
overriding a provision in the No Child Left Behind Act to allow States 
to reduce the grants to local educational agencies below the amount 
they received in the 2006-2007 school year to generate sufficient funds 
under the 4 percent school improvement provision of the law. Could a 
State reduce the Title I grant funds of a school district identified 
for improvement and subgrant those funds to another district?
    Answer. Yes, that would be possible, but any such reduction would 
be very small. Under the Administration's proposal, all districts would 
contribute proportionately to the pool of funds available to support 
State and local school improvement, not just those districts receiving 
increased allocations under the Title I formulas. States would then 
subgrant 95 percent of those funds to school districts with schools 
identified for improvement, with priority on those districts with the 
greatest need for such funds and the strongest commitment to using them 
to raise the performance of the lowest-achieving schools. By the way, 
the hold-harmless also leads States to reduce allocations to districts 
identified for improvement and redirect funds to other districts; it 
simply does so by disproportionately taking funds from districts that 
otherwise qualify for more Title I funds.

   LIMITATION ON REDUCTION OF TITLE I GRANTS FOR SCHOOL IMPROVEMENT 
                                PURPOSES

    Question. Would this proposal establish any limit to the amount by 
which a State could reduce a school district's Title I grant?
    Answer. Yes, unlike current law, our proposal actually would limit 
any reduction for school improvement purposes to 4 percent. Under 
current law, districts that receive increased Title I funding often see 
their allocations reduced by more than 4 percent to make up for those 
districts protected by the hold-harmless.
    Question. If not, why do you believe that is unnecessary?
    Answer. As I said, our proposal actually would restore a meaningful 
limit to the State reservation for school improvement.

  TITLE I SCHOOL IMPROVEMENT FUNDING GENERATED BY 4 PERCENT SET ASIDE

    Question. With more than 9,000 schools identified for improvement 
in the 2004-2005 school year, effective interventions that reduce this 
number and lead to improved student outcomes would help States and 
local school districts meet the goals of No Child Left Behind. How much 
funding has been generated and allocated under the 4 percent set-aside 
for each of the past 3 fiscal years?
    Answer. We do not have actual data on the amounts reserved and 
allocated by the States during this period. We estimate that States 
reserved and allocated for school improvement purposes approximately 
$484 million in fiscal year 2004 and $500 million in fiscal year 2005, 
and will reserve and allocate roughly $499 million in fiscal year 2006.
    Question. Is there any information about the reach of this funding 
and the number of schools identified for improvement, or on watch 
lists, that have not been assisted?
    Answer. Earlier this year, the Department published a report, 
``Title I Accountability and School Improvement from 2001 to 2004,'' 
which found that about 90 percent of school districts with schools 
identified for improvement reported that they provided at least some 
kinds of the assistance required by NCLB. At the same time, more than 
half of ``continuously identified schools'' (those identified for 
improvement throughout the period studied) reported that they did not 
receive more intensive assistance, such as assistance from a school 
support team or a school-based staff developer. The Department study 
also found, however, that State practices for allocating school 
improvement funds varied widely, partly because the study began prior 
to the implementation of No Child Left Behind, which brought 
significant changes to school improvement funding that were not fully 
implemented when the study was completed.
    The recently released report, ``National Assessment of Title I: 
Interim Report,'' found that less than three-quarters of districts with 
identified schools reported having the staff, expertise, time, or money 
to improve the performance of those schools.
    Question. Is there any information on how the 4 percent set-aside 
for school improvement funds have been used to remove schools from 
school improvement lists?
    Answer. We currently do not have data directly linking school 
improvement funding with success in exiting improvement status.

                 TITLE I SCHOOL IMPROVEMENT MONITORING

    Question. Has the Department done any monitoring of the types of 
activities funded with the 4 percent school improvement set-aside 
established under the No Child Left Behind Act?
    Answer. Yes. The monitoring indicators used by ED's Title I 
monitoring team include a focus on whether SEAs have (1) reserved and 
allocated Title I Part A funds for school improvement activities, and 
(2) created and sustained a statewide system of support that provides 
technical assistance to schools identified for improvement. The SEA 
must provide documentation that it has established effective school 
support teams with members who are knowledgeable about scientifically 
based research and practices related to school improvement. Likewise, 
the SEA must provide documentation that the teams provide support to 
schools on such topics as the design and operation of the instructional 
program and strategies for improving student performance. Monitors also 
seek evidence that SEAs are ensuring that LEAs carry out their own 
school improvement activities.
    Another area reviewed is how the SEA distributes the 4 percent 
school improvement funds. Of the amount it reserves, the SEA must 
allocate not less than 95 percent directly to LEAs that operate schools 
identified for improvement to support improvement activities. In most 
cases, States are using these funds to provide special grants to 
support improvement in those schools. In a few instances, States, with 
the approval of the LEAs, directly provide improvement activities or 
arrange to provide them through regional educational centers.
    At the local level, ED's Title I monitors review how LEAs and 
schools are using the funds for improvement activities. This 
information is gleaned through interviews with LEA and school staffs.
    Question. In particular, has the Department monitored the use of 
funds for implementing required 2-year improvement plans incorporating 
strategies based on scientifically based research and addressing the 
specific issues that led to schools being identified for improvement?
    Answer. Yes. The monitoring indicators used by ED's Title I 
monitoring team seek information and evidence that the SEA has assisted 
LEAs in developing or identifying effective curricula aligned with 
State academic achievement standards and disseminated the curricula to 
each LEA and school within the State. Additionally, monitors review and 
discuss school improvement plans with LEA and school staffs to discern 
how these plans address the 10 required components under NCLB, 
including how the improvement plans incorporate strategies that are 
research based and strategies that address the specific issues that led 
to the school being identified for improvement.

  SCHOOL IMPROVEMENT GRANTS PROGRAM AND EFFECTIVE SCHOOL IMPROVEMENT 
                               ACTIVITIES

    Question. What are your plans for using any knowledge generated 
through research on effective school improvement activities; and how 
will the fiscal year 2007 budget request support this goal?
    Answer. The new $200 million request for School Improvement Grants 
recognizes the critical need for State leadership and support in LEA 
and school improvement. While States currently reserve 4 percent of 
Title I, Part A allocations for school improvement activities--an 
amount totaling more than $500 million annually, they must subgrant 95 
percent of these funds to LEAs, leaving just $25 million available for 
State-level school improvement activities. The request would provide 
substantial new support for State-led LEA and school improvement 
efforts and would help build State capacity to carry out statutory 
improvement responsibilities.
    One research based approach that the Department is considering for 
the proposed School Improvement Grants program is requiring each State 
to use diagnostic assessments in schools that repeatedly fail to make 
adequate yearly progress. Such tests would help LEAs and schools 
clearly identify student strengths and weaknesses in a particular 
subject and develop appropriate instruction.

                   SUPPLEMENTAL EDUCATIONAL SERVICES

    Question. Budget documents supporting the budget request note that 
``While many students attending schools identified for restructuring 
receive SES, the services tend to be of limited duration.'' How does 
the amount of funding generated from the appropriations for Title I 
Grants to LEAs under the 20 percent SES/choice requirement relate to 
this finding?
    Answer. The statement in the budget request simply reflects the 
reality that the duration and intensity of current supplemental 
educational services (SES) are limited by the statutory cap on per-
pupil payments, with the current cap averaging about $1,500 nationally. 
There are other factors that affect the duration of services, such as 
the structure of SES programs and the actual costs charged by various 
providers, but the general point is that the America's Opportunity 
Scholarships for Kids proposal would roughly double the funding 
available for SES, from $1,500 to $3,000 and, therefore, greatly 
increase the intensity and duration of available services.
    Question. If limited funding is not the reason for such limited 
intensity, what are the primary causes of it?
    Answer. The premise of our budget request was to enable parents to 
purchase more extensive services with greater resources, and that 
students in schools identified for restructuring are likely to be those 
students who would most benefit from more extensive services than are 
available under current law.
    Question. What is the impact of this finding of limited intensity 
on the effectiveness of the SES activity?
    Answer. The SES program is still in its early years and we do not 
yet have meaningful impact data.
    Question. How is the Department monitoring the requirement in NCLB 
that requires low-achieving students to receive priority for services 
under choice and supplemental services options?
    Answer. ED's Title I monitors review documentation to show that the 
SEA has developed and disseminated guidance to LEAs outlining 
requirements for implementing public school choice and supplemental 
education services and that this guidance includes the requirement that 
low-achieving students receive priority for these services. At the LEA 
level, ED's Title I monitors review parent notification letters, 
guidance documents, LEA contracts with SES providers, and other 
documentation to determine if the LEA has complied with the required 
priority for providing the choice and SES options.

            SUPPLEMENTAL EDUCATIONAL SERVICES PILOT PROGRAM

    Question. You announced a number of pilots last year giving a 
select number of districts in need of improvement the flexibility to 
serve as supplemental educational service (SES) providers in exchange 
for greater student participation and achievement data. All of your 
other pilots invited interested States to ``apply'' before being 
offered this sort of flexibility. Can you explain how you selected the 
handful of districts that are in the SES pilot and why you circumvented 
States altogether and negotiated with districts directly?
    Answer. For each of the pilots that we started last year (allowing 
Chicago and Boston to be providers although they are districts in need 
of improvement and allowing four districts in Virginia to reverse the 
order of choice and SES), the Department discussed and sought approval 
from each of the States before the pilots began. In the case of the 
Virginia pilots, we negotiated directly with the State throughout the 
entire process. For Chicago and Boston, we sought and received approval 
from their respective States for participation in the pilot. As for 
selection of these particular districts for the pilots, in the case of 
Chicago and Boston we worked with the Council of the Great City Schools 
to help us identify districts that were willing and able to participate 
in the pilot. Virginia had been in communication with the Department 
about ways to strengthen SES in the State, and came to the Department 
with a formal request to reverse the order of choice and SES. It was 
the first State to do so, and we granted this flexibility on a trial 
basis.

              SELECTION OF DISTRICTS FOR SES PILOT PROGRAM

    Question. Why was Chicago selected as opposed to districts such as 
Pittsburgh or Philadelphia, for instance?
    Answer. As I mentioned, the Department worked with the Council of 
the Great City Schools to identify districts that had the ability to 
provide high-quality SES services and would meet the terms of the 
pilots. Pittsburgh and Philadelphia were not identified at the time as 
districts meeting these conditions.

   STUDENT PARTICIPATION AND ACHIEVEMENT UNDER THE SES PILOT PROGRAM

    Question. How many additional students are benefiting from each of 
the 3 pilots, which waive your regulation around prohibiting districts 
in need of improvement from serving as an SES provider?
    Answer. Chicago and Boston are the two districts participating in 
this pilot. New York City was invited to participate but declined for 
this year. In Chicago, approximately 55,000 students are participating 
in SES through Chicago's program and private providers' programs; this 
compares to about 40,000 last year. In Boston, about 3,700 are 
participating, compared to about 2,000 last year.
    Question. When will we be able to see the data on the benefits of 
SES on student achievement from these pilots?
    Answer. We anticipate that this summer, after the spring State 
assessment results are in, we should be able to collect data on student 
achievement.
    Question. How are you assuring high-quality tutoring programs in 
SES?
    Answer. As a condition of participation in these pilots, each 
district had to meet a set of guiding principles that the Department 
identified as key elements of high quality SES programs. These included 
communicating to parents about SES through multiple venues and in 
languages that parents could understand, holding extended windows for 
enrollment, and allowing providers to serve students at school 
facilities for a reasonable fee.

                   EXPANSION OF THE SES PILOT PROGRAM

    Question. Do you plan to expand this pilot to additional districts 
in the next school year?
    Answer. We have monitored each of the pilot districts and collected 
data on their implementation this year. We are now in the process of 
reviewing these data and making determinations as to whether the 
Chicago, Boston, and Virginia pilots will continue, and whether 
additional sites will be added.
    Question. If you do plan to expand the pilot program, what will be 
the selection process and how many do you anticipate selecting?
    Answer. In the near future, we will be making determinations as to 
whether these pilots continue and the criteria we will use to select 
sites for participation.
    Question. Do you plan to put any additional requirements on school 
districts serving as SES providers and, if so, what changes might there 
be next year?
    Answer. We are considering whether to add any additional criteria 
to sites that participate in the pilots next year. We are using the 
information we have gained from this year's pilot sites to consider 
ways to strengthen the agreements with districts and help ensure that 
more students are receiving quality SES services.

              AMERICA'S OPPORTUNITY SCHOLARSHIPS FOR KIDS

    Question. The Department's budget includes $100 million for a 
proposed voucher program that could be used by students in schools 
identified for restructuring so that they can transfer to a private 
school or receive intensive tutoring services. Why does the budget 
request $100 million for vouchers for an estimated 2 percent of Title I 
schools and request no increase in the amount of funds available for 
the Title I grant program, the cornerstone of Federal assistance for 
helping disadvantaged students?
    Answer. Congress has invested nearly $200 billion in Title I Grants 
to LEAs over the past 40 years, including $12.7 billion in the current 
fiscal year. While we agree that Title I is the cornerstone of our 
efforts to improve the quality of elementary and secondary education, 
particularly for low-income and minority students in high-poverty 
schools, the size of the program limits the impact of additional 
funding available under current budget constraints. For example, the 
$100 million proposed by President Bush for the America's Opportunity 
Scholarships for Kids program represents less than one-tenth of one 
percent of the funding provided for Title I Grants to LEAs, and would 
have little or no impact when spread across 14,000 school districts. 
However, this amount is sufficient to permit a meaningful demonstration 
of the potential for expanded choice and tutoring options to improve 
the achievement of students attending chronically low-performing 
schools. Moreover, these funds would be targeted to the same students 
who are the focus of the Title I program and, in the case of students 
who select the tutoring option, would help improve the performance of 
Title I schools undergoing restructuring.
    Also, the President is requesting first-time funding for School 
Improvement Grants, which would provide an additional $200 million for 
State-led efforts to turn around low-performing school districts and 
schools. These funds would directly benefit participating Title I 
districts and schools that have been identified for improvement. For 
this reason, it is not entirely accurate to say that the President's 
2007 budget includes no increase in the amount of funds available for 
Title I.

            MEASURING PERFORMANCE OF THE IMPACT AID PROGRAM

    Question. The Administration has been undertaking an examination of 
how to measure performance under the Impact Aid program and has 
identified a model for estimating unmet need of eligible school 
districts. Please provide information on the findings of unmet need for 
various types of Impact Aid districts.
    Answer. In 2005, the Department created a simplified model to 
analyze the effectiveness of the Impact Aid formulas and, more 
specifically, address the question of whether or not funds are 
adequately compensating for a Federal presence and the associated tax 
burden. The Department sent a review and analysis of the model to the 
House and Senate Committees on Appropriations in January 2006.
    The report applied the simplified model to calculate the gap 
between available revenues to the LEA and the amount needed to fund 
schools at the State average per-pupil expenditure for Florida, 
Alabama, and Wyoming, three States for which adequate data were 
available. Comparing this gap to the actual payments made to Impact Aid 
districts revealed that there was very little correlation between the 
computation of local need from the simplified model and actual 
payments.
    The model incorporates tax data into the analysis and, while it 
brings us closer to being able to compute valid economic analyses of 
the program, because of data limitations the model has not yielded the 
desired results. In order to answer these questions properly, more 
sophisticated analysis with better data will likely be needed.

                   IMPROVING TEACHER QUALITY PROGRAMS

    Question. In November 2005, the Government Accountability Office 
released report GAO-06-25, which relates to State implementation of 
teacher qualification requirements of the No Child Left Behind Act. 
This report noted that some teachers who provide instruction in more 
than one core academic subject-such as special education teachers and 
those in rural schools-and secondary math and science teachers might 
not meet the teacher qualification requirement by the current deadline. 
What activities are funded currently and proposed in the fiscal year 
2007 budget to help States and districts ensure that all students are 
taught by a highly qualified teacher?
    Answer. In 2007, the administration is requesting funds for several 
programs that focus on improving teacher quality to help ensure that 
all teachers are highly qualified. These include: Improving Teacher 
Quality State Grants ($2.9 billion), Title I Grants to Local 
Educational Agencies ($624 million--the estimated professional 
development portion), Mathematics and Science Partnerships ($182.2 
million), Transition to Teaching ($44.5 million), Teaching of American 
History ($50 million), Troops-to-Teachers ($14.6 million), and Advanced 
Placement ($122.2 million).

                       HIGHLY QUALIFIED TEACHERS

    Question. What specific steps will be taken to ensure that the 
disparity between the proportion of highly qualified teachers in lower 
income school districts and higher income schools is eliminated?
    Answer. The Elementary and Secondary Education Act (ESEA), as 
amended by the No Child Left Behind Act, establishes the important goal 
that all students be taught by a ``highly qualified teacher'' (HQT) who 
holds at least a bachelor's degree, has obtained full State 
certification, and has demonstrated knowledge in the core academic 
subjects he or she teaches. Further, the ESEA requires States and LEAs 
to include, in their annual report cards, information on the percentage 
of classes not taught by highly qualified teachers, disaggregated by 
high- and low-poverty schools. In addition, the Individuals with 
Disabilities Education Improvement Act of 2004 reinforced the NCLB goal 
by aligning the requirements for special education teachers with the 
NCLB requirements.
    The Department has been requiring States to submit data as part of 
their Consolidated State Performance Reports on the percentage of core 
academic classes taught by highly qualified teachers in high- and low-
poverty schools, as well as the reasons why, for classes taught by 
teachers who are not highly qualified, the teacher is not highly 
qualified. In addition, States must have an equity plan in place to 
ensure that poor or minority children are not taught by inexperienced, 
unqualified, or out-of-field teachers at higher rates than are other 
children. The Department will be looking at States' progress in both of 
these areas this spring and summer. Although States and school 
districts are making significant progress in meeting the HQT 
requirement, there is still a lot of work to do to ensure that each 
State can meet the goal that every child is taught by a highly 
qualified teacher by the end of the 2005-2006 school year.
Meeting the NCLB Highly Qualified Teacher Requirement
    In the Department's ongoing visits and communications with State 
and local officials, we are often asked what will happen if, despite 
their best efforts, districts cannot hire a highly qualified teacher 
for every class in a core academic subject by the end of the 2005-2006 
school year. Personnel decisions are made at the State and local 
levels, and the law relies on education leaders in the States to make 
the best educational decisions for improving student achievement. Last 
fall, I sent a letter to the chief State school officers to assure them 
that States that did not quite reach the 100 percent goal by the end of 
the 2005-2006 school year would not lose Federal funds if they were 
implementing the law and making a good-faith effort to reach the HQT 
goal in NCLB as soon as possible.
    The letter also stated that the Department will determine whether 
or not a State is implementing the law and making a good-faith effort 
to reach the HQT goal by examining four elements of implementation of 
the HQT requirements: (1) the State's definition of a ``highly 
qualified teacher,'' (2) how the State reports to parents and the 
public on classes taught by highly qualified teachers, (3) the 
completeness and accuracy of HQT data reported to the Department, and 
(4) the steps the State has taken to ensure that experienced and 
qualified teachers are equitably distributed among classrooms with poor 
and minority children and those with their peers. In addition, the 
Department will look at States' efforts to recruit, retain, and improve 
the quality of the teaching force. If States meet the law's 
requirements and the Department's expectations in these areas but fall 
short of having highly qualified teachers in every classroom, they will 
have the opportunity to negotiate and implement a revised plan for 
meeting the HQT goal by the end of the 2006-2007 school year. However, 
for States that either are not in compliance with the statutory HQT 
requirements or are not making a good-faith effort to meet the goal of 
having all teachers highly qualified, the Department reserves the right 
to take appropriate action, such as the withholding of funds.

Departmental Review of States' Efforts to Meet the NCLB Highly 
        Qualified Teacher Requirements
    In March 2006, I sent a follow-up letter to the chief State school 
officers with timelines and additional information about the 
Department's review of States' efforts to meet the HQT requirement. By 
the middle of May, the Department will assess States' Consolidated 
State Performance Report data for the 2004-2005 school year, HQT data 
for previous years, and supporting information that we have obtained 
through State monitoring visits and the review of publicly available 
records. The Department will then make determinations about whether the 
State is on track to meet the highly qualified teacher requirement.
    Using the protocol ``Assessing State Progress in Meeting the Highly 
Qualified Teacher Goal,'' the Department will determine whether each 
State's 2004-2005 data indicate that the State has a reasonable 
expectation of meeting the 100 percent HQT goal by the end of the 2005-
06 school year and is faithfully implementing the law. If this is the 
case, the State may not be required to submit a revised plan, though it 
certainly may.
    It is likely, however, that the Department will request most States 
to submit a revised plan detailing the new steps they will take to 
reach the 100 percent HQT goal by the end of the 2006-2007 school year. 
As part of the plan, each State will explain how and when the SEA will 
complete the High Objective Uniform State Standard of Evaluation 
(HOUSSE) process for those teachers not new to the profession who were 
hired prior to the end of the 2005-2006 school year, and how the SEA 
will limit the use of HOUSSE procedures for teachers hired after the 
end of the 2005-2006 school year to those secondary school teachers 
teaching multiple subjects in eligible rural schools (who, if highly 
qualified in at least one subject at the time of hire, may use HOUSSE 
to demonstrate competence in additional subjects within 3 years), and 
those special education teachers teaching multiple subjects (who, if 
they are new to the profession and highly qualified in language arts, 
mathematics, or science at the time of hire, may use HOUSSE to 
demonstrate competence in additional subjects within 2 years). Peers 
and teacher-quality experts will review the State's revised plan and 
evaluate how effectively the plan addresses the State's challenges in 
reaching the 100 percent HQT goal.

Corrective Steps for Districts not Meeting Highly Qualified Teacher 
        Requirements
    Finally, if the Department determines that a State has not 
fulfilled its obligations under the statute and is not on track to have 
all teachers highly qualified by the end of the 2005-2006 school year, 
the Department will take corrective actions in addition to requiring 
the State to submit a revised plan.
    By the middle of May, the Department will notify States, in 
writing, of the results of the assessment of their HQT progress and 
will request the States, as appropriate, to submit revised plans. 
States will have until July 7 to submit their revised plans to the 
Department, and the Department then will determine whether a revised 
State plan is sufficient to attain the HQT goal in 2006-2007 and 
beyond. In August, the Department will begin a new cycle of State 
monitoring visits to ensure that States are implementing their revised 
plans.

   INFORMATION DISSEMINATION ON HIGHLY QUALIFIED TEACHER REQUIREMENTS

    Question. The report also identified some information dissemination 
challenges. What actions has the Department taken or planned for making 
helpful information available?
    Answer. The GAO report recommended that the Department ``explore 
ways to make the Web-based information on teacher qualification 
requirements more accessible to users of its Web site. Specifically, 
the Secretary may want to more prominently display the link to state 
teacher initiatives, as well as consider enhancing the capability of 
the search function.''
    As noted in the GAO report, the Department agrees with the 
recommendation and has been working to improve the Department's website 
so that it is more user friendly for teachers and officials who are 
trying to find information about the highly qualified teacher 
requirements. For example, the website now directs students, teachers, 
parents, and administrators to specific pages for materials of interest 
to them. The teacher page has a section that describes State and local 
initiatives to improve teacher quality, and both the teacher and 
administrator web pages have direct links to information about the 
highly qualified teacher provisions.

           STATES' REPORTING OF HIGHLY QUALIFIED TEACHER DATA

    Question. The Congressional Justification states, ``The Department 
is not entirely confident that all States are reporting accurately on 
the highly qualified status of their teachers, particularly special 
education teachers.'' This statement is consistent with the Government 
Accountability Office's recent report regarding teacher quality issues. 
What actions are you taking to specifically address this issue and what 
plans do you have for future actions?
    Answer. Under the Improving Teacher Quality State Grants section of 
the congressional justification, we did report that the Department is 
not entirely confident that all States are reporting accurately on the 
highly qualified status of their teachers, particularly special 
education teachers. To address this concern, the Department has been 
working closely with States, especially through monitoring visits, to 
help them improve the quality of the data that they report. As of late 
March 2006, the Department has monitored all but three States 
concerning their highly qualified teacher status and will monitor the 
remaining States this spring.
    We will also be looking very carefully at States' efforts to report 
accurately HQT data this spring and summer when we review their 
progress in meeting the requirement that all teachers of core academic 
subjects be highly qualified by the end of the 2005-2006 school year. 
After that review, we will likely require many States to submit revised 
State plans, and we may take corrective actions against any States that 
are not making a good-faith effort to improve their data collection and 
reporting. The Department also plans to begin a new round of State 
monitoring visits late this summer.
    Question. How does your budget support your current and planned 
actions?
    Answer. The Department is planning to use Salaries and Expenses 
funds to review States' HQT data and their efforts towards meeting the 
goal of having all teachers of core academic subjects highly qualified.

          ENFORCEMENT OF HIGHLY QUALIFIED TEACHERS REQUIREMENT

    Question. In your October 21, 2005 policy letter regarding the 
``highly qualified teacher'' issue, you assured States they would not 
lose Federal funds if they failed to meet the 100 percent requirement 
and were making a good faith effort to implement the law. One of the 
ways you will make such a determination is by evaluating whether States 
take action to ensure that inexperienced, unqualified, or out-of-field 
teachers do not teach poor or minority children at higher rates than 
other children. How are highly qualified teachers distributed currently 
between low-income and high-income school districts?
    Answer. States are reporting steady improvement towards meeting the 
goal of having all teachers of core academic subjects highly qualified 
by the end of the 2005-2006 school year. Data for the 2005-2006 school 
year will be reported in 2007. For 2003-2004, the data indicate that 81 
percent of core academic classes in high-poverty schools were taught by 
highly qualified teachers, an increase of 7 percentage points over the 
baseline of 74 in 2003. 2004 data for the percentage of core academic 
classes taught by highly qualified teachers in low-poverty, elementary, 
and secondary schools was 89 percent, 89 percent, and 84 percent, 
respectively.

 ENSURING HIGHLY QUALIFIED TEACHERS FOR STUDENTS OF ALL SOCIOECONOMIC 
                                 STATUS

    Question. What steps is the Department taking to ensure 
socioeconomic status does not determine whether a student has access to 
a qualified teacher or not?
    Answer. For the Improving Teacher Quality State Grants program, the 
Department requires States to report on teachers' highly qualified 
status at the classroom level. For example, in the 2003-2004 school 
year, 81 percent of core academic classes in high-poverty schools were 
taught by highly qualified teachers. We believe that, by requiring 
States to report on all classrooms, we are sending the message that we 
expect all core academic teachers to be highly qualified, whether they 
are teaching in a high- or low-poverty school, or whether at the 
elementary- or secondary-school levels.
    As mentioned earlier, the Department will closely evaluate States' 
progress in meeting the HQT requirement this spring and summer as part 
of our determination of whether they are making a good-faith effort to 
meet the 100 percent objective. This will include a review of their 
Title I equity plans, which are meant to ensure that poor or minority 
children are not taught by inexperienced, unqualified, or out-of-field 
teachers at higher rates than are other children.

FEDERAL EFFORTS TO ADDRESS INEQUITABLE DISTRIBUTION OF HIGHLY QUALIFIED 
                        AND UNQUALIFIED TEACHERS

    Question. How have States used Federal funds to address this issue?
    Answer. The Department sponsored a 2-day meeting for State 
coordinators in March 2006 that focused on the inequitable distribution 
of teachers who are unqualified, inexperienced, or out-of-field. 
Working with experts and researchers from the National Comprehensive 
Center for Teacher Quality (at Learning Point, Inc.), the Educational 
Testing Service, and the Council of Chief State School Officers, the 
Department provided the State coordinators with a series of written 
tools they can use to examine the inequity issue and begin to prepare 
State plans to address the issue. The Department also provided all of 
the States with a protocol that will be used to examine whether revised 
State plans, which must be provided to the Department this summer, will 
satisfactorily address this issue.
    For most States, this is the first time they will be preparing 
formal, written equity plans. In previous years, States had difficulty 
determining if there was an equity distribution problem, so they were 
unsure how to best address concerns about the unequal distribution of 
highly qualified teachers. The availability of valid data about the 
distribution of highly qualified teachers is now helping States to 
think about the problem and develop equity plans.
    Although States are just now developing their equity plans, many 
States already have incentive programs and strategies to encourage 
teachers to take on more challenging assignments. The Department is 
highlighting some of these strategies at the following weblink: http://
www.teacherquality.us/Public/PublicHome.asp.

    TEACHER QUALITY ENHANCEMENT PROGRAM AND TEACHER RECRUITMENT AND 
                               RETENTION

    Question. In recent years, Congress has tried to affect teacher 
recruitment and retention through a number of legislative efforts, 
including scholarships for those who commit to teaching in certain 
geographic or content areas, loan forgiveness programs, and other 
efforts. In addition, there are new requirements that districts and 
States are trying ardently to meet as required by No Child Left 
Behind's ``highly qualified teacher'' provisions. Why is the Department 
acknowledging the crucial role teachers play in maintaining the 
country's competitiveness, while at the same time it is proposing 
elimination of the Higher Education Act's Teacher Quality Enhancement 
program? Can you explain these seemingly conflicting efforts?
    Answer. We do not believe that there is any conflict in the 
Department's efforts to improve teacher recruitment and retention and 
the Department's proposal to terminate duplicative programs, such as 
the Teacher Quality Enhancement program. The Department continues to 
recognize that the quality of the teacher is one of the most critical 
components in how well students achieve and that improving efforts to 
recruit and retain top quality teachers, especially in geographic and 
academic areas of high need, is critical to improving the overall 
quality of the Nation's teachers. The Department's proposal to 
terminate the Teacher Quality Enhancement program is based, in part, on 
the fact that State and local entities may already use funds they 
receive under a number of other Department programs to carry out the 
activities supported through the Teacher Quality Enhancement program. 
Both the Improving Teacher Quality State Grants program and the 
Transition to Teaching program include provisions designed to improve 
teacher recruitment and retention, including all of the activities that 
are allowable under the Teacher Quality Enhancement program. The 
Department's proposal to eliminate funding for the Teacher Quality 
Enhancement program would reduce unnecessary duplication, improve 
programmatic efficiency, and simplify the grant process for potential 
recipients.

                       DATA MANAGEMENT INITIATIVE

    Question. The Government Accountability Office report (GAO), GAO-
06-06, released in October 2005, included an assessment of the 
Department's efforts to identify performance-related data items that 
could be collected and reported by States that would promote the 
evaluation of the effectiveness of Federal programs. This report 
identified several challenges with respect to the participation of and 
perceived benefit for States and quality and consistency of data 
collected through the system. What is the Department's plan for 
addressing the challenges identified in the GAO report and how much 
funding is being allocated in fiscal year 2006 and requested in fiscal 
year 2007 for this initiative?
    Answer. The GAO report recommended that the Department develop a 
strategy to help States improve their ability to provide quality data. 
As described in the Corrective Action Plan we submitted to the GAO in 
response to their report, we have taken several steps to improve the 
quality of the data the Department collects. By the end of this fiscal 
year, we will have awarded nearly $50 million in grants to States under 
the Statewide Data Systems program to develop and implement statewide 
longitudinal data systems. The President's 2007 budget requests a $30 
million increase for this program.
    The National Center for Education Statistics is working with the 
staff of the Department's central database, the Education Data Exchange 
Network (EDEN), to provide technical support and oversight for our 
grantees. The Department provides additional technical assistance to 
States through the Data Quality and Standards Contract with the Council 
of Chief State School Officers. The Department is also a contributing 
partner in the Data Quality Campaign, a partnership of more than 10 
national organizations that helps States implement high-quality 
statewide information management systems. Finally, the Department has 
established a Partner Support Center that provides expert technical 
assistance to States on data submission processes and quality issues 
related to EDEN.
    The Department is conducting a rigorous assessment of the quality 
of our data collection and reporting. As part of this process, the 
Department recently announced the launch of EDFacts, a new reporting 
and analysis tool for data collected and compiled through sources such 
as EDEN. In 2006, $5.705 million is being allocated for enhancements to 
the EDFacts and EDEN systems, and $6.244 million is requested for 2007.
    Question. Specifically, how will these funds be utilized?
    Answer. These funds will be used to support the operation of the 
Partner Support Center, development of new enhancements for the EDEN 
and EDFacts systems (including this year's successful online collection 
of the Consolidated State Performance Report), maintenance of these 
systems, and development of new reports and tools that enhance program 
offices' efficient use of collected K-12 performance data.

                  FOREIGN LANGUAGE ASSISTANCE PROGRAM

    Question. The budget proposes a $2 million increase for the Foreign 
Language Assistance program. Budget documents supporting this request 
state that beginning with the 2006 competition, the Department will 
focus this program on providing incentives for States and districts to 
provide instruction in critical needs language, especially those 
programs using technology. Please explain how the 2006 competition will 
be structured to address the issues raised in the fiscal year 2006 
Senate Committee Report and the Statement of the Managers accompanying 
the fiscal year 2006 Conference Report. Specifically, what type of 
priority are you proposing for the 2006 competition, and what is the 
complete list of foreign languages that will be eligible for such a 
priority?
    Answer. The Department is committed to ensuring that all school 
districts that demonstrate the capacity to successfully implement a 
program receive consideration for competitive grant funds. In response 
to the concerns raised both in the Senate Committee Report and the 
Statement of Managers that the poorest districts may be shut out of 
Foreign Language Assistance grants due to their inability provide the 
required 50 percent match, the Department has taken active steps to 
increase awareness of waiver availability for eligible grant 
applicants. The application package for grants includes detailed 
information about what resources may contribute to a grantee's matching 
requirement, and the Department considers waivers for any district that 
can demonstrate financial hardship. The program office also has 
expanded its outreach efforts to include details about the waiver 
process and eligibility on the Department's web page, at professional 
workshops, and in fact sheets about the program. The combination of 
improved grant application materials and increased public awareness 
about waivers will help ensure that disadvantaged districts are not 
precluded from participating in the program.
Foreign Language Assistance Program--Critical Need Languages Priorty
    In addition to giving increased attention to grantees that may be 
eligible for waivers, the Department established a priority relating to 
critical need languages for the 2006 grant competition. In conjunction 
with the President's National Security Language Initiative, the 
Department will give preference to grant applicants that demonstrate 
the ability to build programs and courses in languages that have 
significant political or economic importance. The specific languages 
that have been identified as critical are Arabic, Chinese, Korean, 
Japanese, Russian, and the languages in the Indic, Iranian, and Turkic 
language families.

                             ARTS EDUCATION

    Question. The No Child Left Behind Act recognizes the arts as a 
core academic subject and studies show that the arts are proven to help 
close the achievement gap and improve essential academic skills. You 
have stated previously that a ``well-rounded curriculum that includes 
the arts and music contributes to higher academic achievement.'' If 
arts have been proven to be essential to the learning process, why has 
the President proposed the elimination of arts education in the fiscal 
year 2007 budget?
    Answer. Our request to zero-fund Arts in Education reflects the 
Administration's policy of increasing resources for high-priority 
programs by eliminating categorical programs that have narrow or 
limited effect. These categorical programs siphon off Federal resources 
that could be used by State and local educational agencies to improve 
the academic performance of all students.
    Districts desiring to implement arts education activities may use 
funds provided under other Federal programs. The Elementary and 
Secondary Education Act also provides LEAs with flexibility to 
consolidate certain Federal funds to carry out activities, including 
arts education programs, that best meet the needs of their district. 
For example, under the State and Local Transferability Act, most LEAs 
may transfer up to 50 percent of their formula allocations under 
various State formula grant programs to their allocations under: (1) 
any of the other authorized programs; or (2) Part A of Title I. 
Activities to support arts education are an allowable use of funds 
under the State Grants for Innovative Programs authority. Therefore, an 
LEA that wants to implement an arts education program may transfer 
funds from its allocations received under the authorized programs to 
its State Grants for Innovative Programs allocation, without having to 
go through a separate grant application process.
    In addition, under the Improving Teacher Quality State Grants 
program, local educational agencies can use their funds to implement 
professional development activities that improve the knowledge of 
teachers and principals in core academic subjects, including the arts. 
The flexibility that is available under these Federal programs provides 
additional justification for the Administration's policy of eliminating 
discrete categorical grant programs such as Arts in Education.
    Question. As a ``core academic subject,'' the arts should be 
included in all research and data collection. The No Child Left Behind 
Act and current Department of Education policy make it clear that 
decisions regarding education are made on the basis of research. The 
FRSS report, ``Arts in Education in Public Elementary and Secondary 
Schools,'' is the only research report produced by the Department on 
the status of how arts education is delivered in America's public 
schools. The last report was for data collected in the 1999-2000 school 
year and the fiscal year 2006 statement of the managers urges IES to 
repeat this comprehensive data collection and report. When is the 
Department planning on another round of data collection for an updated 
report, which will help study and improve access to the arts as a core 
academic subject?
    Answer. We agree that having periodic information about arts 
education is important. The next National Assessment of Educational 
Progress (NAEP) arts assessment is scheduled for 2008. It will be an 
8th-grade assessment that will include components for music, theater, 
and the visual arts, as was the case with the last arts assessment in 
1997. Work on the 2008 assessment began last year with item 
development, and we will conduct a field test this year.
    The Department has not budgeted for an arts education survey in the 
National Center for Education Statistics (NCES) Fast Response Survey 
program for fiscal year 2007. The expense of replicating a survey 
involving multiple samples of teachers in the visual arts, music, and 
dramatic arts is too great, given competing demands for funds and the 
costs of the ongoing data collection programs of NCES. The National 
Endowment for the Arts requested the earlier 1999-2000 arts education 
survey and paid for it in part.

         READY TO TEACH PROGRAM AND MATH AND SCIENCE EDUCATION

    Question. Madam Secretary, the fiscal year 2007 budget allocates 
$380 million for new or increased funding for math and science programs 
aimed at giving students the skills they need to become competitive 
workers in the global economy of the 21st century. Specifically, part 
of this funding is targeted to address the critical shortage of 
qualified teachers for math and science education, particularly in 
high-concentration areas for low-income students.
    The Ready To Teach program funds the development of digital 
educational content and online professional development in partnerships 
with the public television community. Congress has invested in this 
program over several years to ensure that it is easily accessible, 
flexible and tailored to local, State, and national standards. The most 
recent grant competition recognized the continued success of PBS 
TeacherLine service, and technology-based programs that offer a cost-
effective complement to off-campus training. In a difficult budget 
environment, the Department should work to utilize the assets of 
programs such as Ready to Teach in its effort to strengthen math and 
science education, especially in the area of teacher training. How will 
the Department utilize this investment in advancing math and science 
education?
    Answer. The Department has no plans to utilize the Ready to Teach 
program to advance math and science education. There is limited 
information on the effectiveness of professional development activities 
supported through this small technology program. It's also not at all 
clear that nonprofit telecommunications entities, like Ready to Teach 
program grantees, are very well equipped to address the critical 
training and professional development and training needs of current and 
future math and science teachers.
    In past years, Ready to Teach has played a very limited role in 
helping schools and districts address professional development needs, 
and next to no role in actually providing teacher training. In light of 
recent research findings on the critical influence of highly qualified 
teachers on student learning, and the seriousness of the on-going 
teacher shortage crisis, the Administration believes that funds should 
not be provided for small categorical programs like this one that have 
limited impact and that siphon off Federal resources that could be used 
by States and districts to pursue more important goals.

                         READY TO LEARN PROGRAM

    Question. Madam Secretary, last year the Department restructured 
the Ready to Learn educational television program to focus solely on 
programming that teaches literacy, and eliminated much of the 
widespread community outreach portion of the program. We all agree that 
literacy proficiency is central to fulfilling the goals of No Child 
Left Behind, and we applaud the Administration's including funds for 
Ready to Learn in the Administration's budget request. However, the 
elimination of the outreach activities concerns many of us here in 
Congress. How does the Department plan to build upon the successes of 
the local outreach activities by public television stations across the 
country?
    Answer. Over the current 5-year budget period, the Department 
intends to dedicate approximately $20 million to support on-going Ready 
to Learn (RTL) community outreach activities. While it's true that the 
Department restructured the Ready to Learn educational television 
competition, it's not true that ``much of the widespread community 
outreach portion of the program'' was eliminated. In fiscal year 2005, 
the Department made three new awards under the Ready to Learn program, 
including one 5-year outreach award to the Corporation for Public 
Broadcasting (CPB). Under this outreach award, CPB will continue to 
work strategically with public television stations across the country 
to support a variety of local outreach activities.

 WORKSHOP APPROACH TO OUTREACH AND IMPACT ON STUDENT LEARNING OUTCOMES

    Question. A recent evaluation of ``the workshop approach'' to 
outreach supported by previous RTL grantees (entitled ``Using 
Television as a Teaching Tool: The Impacts of Ready to Learn Workshops 
on Parents, Educators, and the Children in Their Care'') suggests that 
RTL has yet to achieve intended results in key areas of outreach 
implementation. Although a link between RTL workshops and adults' self-
reported behaviors at 3 and 6 months after the workshops was 
established, the effect sizes were small and the impacts on adult 
behaviors did not translate into impacts on children. This study 
concluded that the workshop approach to outreach had no measurable 
effects on student learning outcomes and only moderate impacts on 
parent/caregiver behaviors. As the study pointed out, enhancing 
children's school readiness to the point of significant, measurable 
improvement usually requires large investments in child-focused 
interventions over extended periods of time. Thus, it's not surprising 
that the workshops, which necessarily cannot be implemented at the 
level of intensity usually associated with most interventions that 
improve student-learning outcomes, showed no measurable effects on 
student behaviors and learning outcomes. Based on the findings of this 
rigorous 5-year evaluation, we believe that RTL outreach activities can 
be targeted far more effectively, to the end of ensuring that all 
children read on grade level by the third grade.
    Because outreach is such a critical component of the RTL program, 
under the new outreach award CPB plans to use the latest evidence from 
social marketing research to target their efforts more effectively. CPB 
will continue to rely heavily on community partnerships, and will 
strategically partner with public broadcasting stations as local 
community hubs. However, unlike in past outreach work, CPB will partner 
with PBS to promote public awareness of RTL at the national and local 
levels through press and media outlets such as newspapers, television, 
and radio, emphasizing those most likely to reach the target audience 
of low-income parents and caregivers.
    More specifically, isn't there a way to combine the educational 
television programming on PBS funded by Ready to Learn, with local 
workshops for parents and teachers and other outreach activities by 
local public stations, such as free book distribution.
    Answer. As indicated in our response to the previous question, a 
recent evaluation of ``the workshop approach'' to outreach supported by 
previous RTL grantees (entitled ``Using Television as a Teaching Tool: 
The Impacts of Ready to Learn Workshops on Parents, Educators, and the 
Children in Their Care'') suggests that RTL has yet to achieve intended 
results in key areas of outreach implementation. Based on this 
evaluation, we believe that RTL outreach activities can be targeted far 
more effectively, to the end of ensuring that all children read on 
grade level by the third grade.
    Under the new outreach award, CPB plans to change its outreach 
strategy by using the latest evidence from social marketing research to 
inform its work. CPB will continue to rely heavily on community 
partnerships, and will strategically partner with public broadcasting 
stations as local community hubs. However, unlike in past outreach 
work, CPB will partner with PBS to promote public awareness of RTL at 
the national and local levels through press and media outlets such as 
newspapers, television, and radio, emphasizing those most likely to 
reach the target audience of low-income parents and caregivers.

                  READY TO LEARN CONTINUATION PROJECTS

    Question. Additionally, given the President's emerging initiative 
in math and science education, would you support a proposal to expand 
the focus of Ready to Learn to include, in addition to literacy, math 
and science education programming?
    Answer. All of the Ready To Learn funds requested for fiscal year 
2007 are needed to cover the continuation costs of current grantees, 
which were awarded 5-year grants in 2005. Both programming awards must 
focus on utilizing the principles of scientifically based reading 
research to improve literacy outcomes for young children, consistent 
with the priority established for last year's competition and the 
cooperative agreements. By 2010, however, when the awards under this 
program will be re-competed, it is possible that the research base on 
how children acquire math and science knowledge will be sufficiently 
well-developed to support the development of new children's educational 
programming in these areas.

   MATH AND SCIENCE EDUCATION--MATH NOW PROGRAM AND MATH AND SCIENCE 
                              PARTNERSHIPS

    Question. The fiscal year 2007 budget proposes to establish Math 
Now for Elementary and Secondary School programs, which are intended to 
improve math instruction for elementary and middle school students. 
What is the potential overlap between the proposed math programs and 
the existing Math and Science Partnerships program?
    Answer. The administration believes that Mathematics and Science 
Partnerships, a formula-grant program that promotes strong teaching 
skills for elementary and secondary school teachers, is important for 
ensuring that all States have high-quality mathematics and science 
professional development programs that focus on implementing 
scientifically based research and technology into the curriculum.
    The Math Now programs, which will implement proven practices in 
mathematics instruction, including those recommended by the National 
Mathematics Panel, will go one step further by helping to ensure that 
American students are prepared to take and pass algebra courses in 
middle school, which will encourage them to take and pass higher-level 
mathematics and science courses in high school. They will focus more 
precisely than does Mathematics and Science Partnerships on the need to 
ensure that elementary-school students receive what the best research 
indicates is the most effective math instruction and for middle-school 
students who are struggling in math to receive the interventions they 
need.

  MATHEMATICS AND SCIENCE PARTNERSHIPS AND MATH NOW PROGRAM ACTIVITIES

    Question. The States have some flexibility on how they target those 
funds through their sub-granting process. Is there any information 
about the extent to which States have targeted funding to the same 
issues proposed to be addressed by these new programs?
    Answer. The Department began collecting data from States and 
partnerships this year that will describe how Mathematics and Science 
Partnerships (MSP) subgrantees are implementing the program. These data 
will include information about the kinds of activities MSP subgrantees 
are conducting with program funds, and the information should be 
available this summer.
    Although we do not have a better sense of the activities MSP 
grantees are conducting, it is possible that there may be some overlap 
between the MSP and Math Now programs. However, we expect that it will 
be minimal. For example, the MSP program focuses on providing 
professional development for mathematics and science teachers, while 
the Math Now programs would have several allowable uses of funds, 
including professional development, but focusing more on improving 
elementary-school math instruction and helping middle-school students 
who are significantly below grade level in math. The Math Now grantees 
would also implement instructional principles and promising practices 
developed by the National Mathematics Panel, which is not a requirement 
of MSP subgrantees.

                       NATIONAL MATHEMATICS PANEL

    Question. The fiscal year 2007 President's budget proposes to 
establish a National Mathematics Panel to identify approaches and 
interventions that meet either the scientifically based research 
standard, as defined in the No Child Left Behind Act, or ``promising 
practices.'' How will the selections for the National Mathematics Panel 
be made, so that individuals with diverse backgrounds are represented 
on the panel?
    Answer. In order to ensure a diverse pool of expertise, the 
Secretary will appoint no more than 20 members from the public and 
private sectors, as well as no more than 10 members from the Department 
of Education and other Federal agencies to the National Mathematics 
Panel. Panel members may include researchers who study mathematics, 
professors of mathematics and mathematics education, professors of 
psychology and/or cognitive development, practicing teachers, 
principals, State or local education officials, parents, business 
leaders, foundation representatives, members of education associations, 
and other individuals selected on the basis of their expertise and 
experiences as appropriate.
    Question. How will ``promising practices'' be defined for purposes 
of identifying approaches and interventions?
    Answer. Once it has been convened, members of the National 
Mathematics Panel will meet and determine the appropriate definitions 
and methodology for their review and synthesis of the evidence base on 
mathematics education. One of their charges will be to recommend, based 
on the best available scientific evidence, instructional practices, 
programs, and materials that are effective for improving mathematics 
learning. Since the scientific evidence base in mathematics education 
is inadequate in many areas, we anticipate that the Panel will also 
provide guidance that will help States and districts determine which 
approaches and interventions have some evidence-even through it does 
not yet meet the standards for scientifically based research-that 
indicate that the interventions will improve student outcomes.

                   MATHEMATICS AND SCIENCE EDUCATION

    Question. The President's Academic Competitiveness Initiative (ACI) 
clearly emphasizes the need for improved science, technology, 
engineering and mathematics (STEM) education. The Department of 
Education's 2007 budget request makes substantial improved mathematics 
education via the Math Now program, but does not make a comparable 
investment in science education. What is the Department's plan for 
investing in science education?
    Answer. Both mathematics and science are important subjects for our 
students to learn well if we are to remain competitive in the global 
economy. Because we need to set priorities within our budget, we are 
focusing on mathematics first through the Math Now programs. 
Mathematics is a ``gateway'' course for upper-level mathematics and 
science learning, so we believe that it is crucial for students to 
first have a firm foundation in mathematics. In addition, because Title 
I mathematics assessments are already in place (while the science 
assessments will not come on line until 2007-2008), we have an 
immediate source of information for measuring the effectiveness of new 
strategies in teaching mathematics, but not in science.

Science Education Support
    Finally, the budget request includes either increases or level 
funding for a number of programs that focus on science, including 
Mathematics and Science Partnerships and Graduate Assistance in Areas 
of National Need. The new Advanced Placement and Adjunct Teacher Corps 
proposals would target science, in addition to mathematics and critical 
foreign languages. Other Department programs that allow grantees to 
focus on science include Transition to Teaching, Troop-to-Teachers, and 
Improving Teacher Quality State Grants.

                   INVESTMENTS IN ADVANCED PLACEMENT

    Question. The fiscal year 2007 budget proposes to expand the reach 
of the Advanced Placement program by requiring grantees to offer 
incentives for teachers to become qualified to teach Advanced Placement 
and International Baccalaureate Organization classes in mathematics, 
science, and foreign languages and to teachers whose students pass 
tests in those subjects. The budget also proposes to require grantees 
to secure public and private matching funds to leverage the Federal 
investment. How much money does the Department expect the private 
sector to contribute toward the matching requirement for the Advanced 
Placement (AP) program?
    Answer. The Department expects the private sector to invest roughly 
$114 million in the AP program, which matches the Department's funding 
request for AP Incentive Grants. Based on conversations with potential 
donors, who are very excited about this initiative, we believe this 
assumption is realistic.
    Question. What is the basis for that projection?
    Answer. Conversations between Department officials and 
representatives of private companies indicate that very substantial 
non-governmental support will be forthcoming. Senior officials are 
encouraging supporters of the proposal to publicize their commitment, 
and we hope to provide more information in the coming weeks.
    Question. Please provide the same information for State 
contributions.
    Answer. The Department is aware that many States are already 
committed to investing in the AP program, and believe that States will 
contribute their support and resources to increasing low-income 
students' access to challenging coursework. Our expectation is that 
State and local funds will amount to approximately $114 million, 
resulting in roughly a one-third/one-third/one-third split in Federal, 
State and local, and private-sector contributions.
    Question. Also, does the Department plan to institute a 
maintenance-of-effort requirement for States; why or why not?
    Answer. No, because the statute already includes a ``supplement, 
not supplant'' provision, which will prevent the Federal funds from 
merely supplanting existing State and local efforts.

                  ADVANCED PLACEMENT INCENTIVE PROGRAM

    Question. How will the Department ensure that the proposed 
incentive for teachers whose students pass AP/IB tests will not lead to 
the unintended consequence of discouraging students from taking these 
tests?
    Answer. Providing a bonus to teachers for each student who passes 
an AP test should be an incentive for teachers to get more students to 
take and pass AP exams. According to ``Do What Works: How Proven 
Practices Can Improve America's High Schools,'' written by Tom Luce, 
now our Assistant Secretary for Planning, Evaluation, and Policy 
Development, and Lee Thompson, the AP incentive program increased the 
number of students taking AP courses and passing AP exams in Texas. The 
Department's proposal would extend the opportunities granted to 
students in Texas to young people across America.

                          FEDERAL STUDENT AID

    Question. Budget documents supporting the recall of the Federal 
portion of repayments made under the Federal Perkins Loans program 
indicate that, ``the Administration believes the Federal share of funds 
held by this small group of institutions might more effectively help 
students if used in a way that serves all eligible students regardless 
of institution.'' In addition to the $664 million proposed recall of 
Perkins proceeds, the proposed budget includes a reduction of $436 
million in funding from the Student Financial Assistance account. How 
does the proposed budget more effectively serve all eligible students 
by recalling $664 million from the Perkins loans program and reducing 
the Student Financial Assistance account by $436 million?
    Answer. It is important to look at the Federal investment in 
student aid from a broad perspective. Overall, the President's Budget 
would build on student benefits included in the Higher Education 
Reconciliation Act (HERA) to provide a record $82 billion in new 
student grant and loan assistance in fiscal year 2007. The HERA created 
Academic Competitiveness Grants, a new need-based program supported 
with mandatory funding that will award annual grants of up to $1,300 to 
high-achieving first- and second-year students who have completed a 
rigorous high school curriculum or up to $4,000 for third- and fourth-
year students majoring in mathematics, science, technology, 
engineering, or critical foreign languages. In 2007, the program would 
provide $850 million in grants to 600,000 low-income postsecondary 
students. Over 2006-2010, grant awards would total more than $4.5 
billion.
    In addition, the HERA makes student loans more affordable by 
phasing out student origination fees and fixing student interest rates 
at 6.8 percent, reducing the maximum rate from the previous 8.25 
percent. (If calculated today, the current variable rate formula--which 
will continue to apply for loans originated prior to July 1, 2006--
would be 7.11 percent; if recent trends continue through June, the 
actual rate may be even higher.) The HERA also expands loan limits for 
first- and second-year students and graduate students and permanently 
expands loan forgiveness from $5,000 to $17,500 for math, science and 
special education teacher serving low-income communities.
    Within the Student Financial Assistance account itself, most of the 
$436 million reduction you mention reflects the effect of the new 
scoring rule for the Pell Grant program, which reduces the need for 
current year budget authority by allowing the use of excess funds from 
the previous fiscal year. The balance of the reduction reflects 
revised, lower estimates of fiscal year 2007 Pell Grant program costs 
and the elimination of two redundant, ineffective, or unnecessary 
programs: Federal Perkins Loans and Leveraging Education Assistance 
Partnerships.

              COMMISSION ON THE FUTURE OF HIGHER EDUCATION

    Question. Specifically, how will low- and middle-income students 
achieve the same access to postsecondary education as high-income 
students have, which is an objective of the Department of Education?
    Answer. In today's highly competitive global economy it is vital 
that no American student be denied access to effective postsecondary 
education due to high costs. Accordingly, in September 2005 the 
Secretary's Commission on the Future of Higher Education was created to 
examine how we as a Nation can keep higher education affordable and 
accessible. The Commission, made up of experienced leaders from 
education, business, and government, is holding a series of meetings 
around the country and gathering data from respected experts on higher 
education. A final report with the commission's findings is expected by 
August.

                      FUNDING FOR HIGHER EDUCATION

    Question. In ``Cracks in the Education Pipeline: A Business 
Leader's Guide to Higher Education Reform,'' it is stated that low-
income families, those with incomes in the bottom 40 percent of the 
earnings distribution, spend one-third of their income to send a child 
to community college and 43 percent to enroll in a public 4-year 
school. Further, the document states that, ``Student aid has the 
greatest impact when targeted on low-income students who otherwise 
would not enroll in college.'' What is proposed in this budget to help 
such families finance their goals for postsecondary education?
    Answer. The President's 2007 Budget for student aid builds on a 
number of significant accomplishments in 2006 to provide a record $82 
billion in assistance to more than 10 million students and parents. 
Adopting a proposal from the 2006 President's Budget, Congress 
appropriated $4.3 billion in mandatory funding in 2006 to eliminate a 
long-standing funding shortfall in the Pell Grant program, putting this 
vital program--the foundation of Federal need-based aid--on a firm 
financial footing after years of growing fiscal instability. Congress 
also adopted new budget rules proposed by the President to prevent 
shortfalls from occurring in the future. In addition, the Higher 
Education Reconciliation Act, signed by the President in February, 
would further help the neediest students by phasing out origination 
fees for Stafford Loans and providing over $4.5 billion over 5 years in 
new need-based Academic Competitiveness and SMART Grants.

        ADVANCING AMERICA THROUGH FOREIGN LANGUAGE PARTNERSHIPS

    Question. The fiscal year 2007 budget proposes a new program, 
through appropriations language, to establish partnerships between 
institutions of higher education and school districts that support 
programs of study in grades K-16 in critical need languages. 
Specifically, how will this proposed program complement existing 
Department programs, such as those authorized and funded under title VI 
of the Higher Education Act and the Fulbright-Hays Act?
    Answer. The Advancing America Through Foreign Language Partnerships 
program is intended to complement, not duplicate, existing Department 
programs that provide support for foreign language and areas studies 
education. Distinctive elements of the Advancing America Through 
Foreign Language Partnerships program, compared to the Title VI of the 
Higher Education Act and those authorized by the Mutual Educational and 
Cultural Exchange Act (Fulbright-Hays), include partnerships between 
institutions of higher education and school districts; the degree of 
focus on ``critical need languages'' such as Arabic, Chinese, Russian, 
Hindi, Farsi, and others; and unique language programs of study that 
enable successful students to advance from early learning in elementary 
school through advanced proficiency levels in high school to superior 
levels in college. The Title VI and Fulbright-Hays programs support 14 
distinct yet interrelated programs designed to strengthen the 
capability and performance of American education in foreign languages 
and in area and international studies in a number of world regions. 
These programs do not establish articulated programs of study in grades 
K-16 in critical need foreign languages.
    In addition, the objectives of this proposed program that relate to 
establishing fully articulated K-16 programs that produce college 
students who achieve a superior level of proficiency cannot be 
accomplished through grants to local and State educational agencies 
under the Department's Foreign Language Assistance program (FLAP). FLAP 
is focused on improving the quality of foreign language instruction in 
elementary and secondary schools. Institutions of higher education are 
not eligible to apply for funding under the FLAP program. Moreover, 
FLAP is not an appropriate vehicle for establishing the kind of 
partnerships needed between school districts and institutions of higher 
education to ensure an articulated curriculum and consistent goals and 
continual progress toward the required outcomes at all educational 
levels, including the postsecondary level.
    The Advancing America Through Foreign Language Partnerships program 
fits within the Department's mission and complements Title VI and other 
Department activities relating to the teaching and learning of foreign 
languages.

    ADVANCING AMERICA THROUGH FOREIGN LANGUAGE PARTNERSHIPS AND DOD 
                 NATIONAL FLAGSHIP LANGUAGE INITIATIVE

    Question. How will this new program complement related programs 
administered by other Federal agencies?
    Answer. The Advancing America Through Foreign Language Partnerships 
program would operate following the model created under the National 
Flagship Language Initiative at the Department of Defense. The 
Administration seeks to expand on DOD's pilot K-16 Mandarin Chinese 
program by awarding an additional 24 grants to institutions of higher 
education for partnerships with school districts for programs of 
language study in a variety of languages critical to national security 
such as Arabic, Chinese, Russian, Hindi, Farsi, and others. The 
Administration is proposing that ED (and not DOD) undertake the 
expansion of this program because the goals of the program fit within 
the Department's mission and the program complements other ED 
activities relating to the teaching and learning of foreign languages.

REQUIREMENTS OF ADVANCING AMERICA THROUGH FOREIGN LANGUAGE PARTNERSHIPS 
                                GRANTEES

    Question. Supporting budget documents note that applicants would 
have to demonstrate the long-term success of their project, as well as 
commit to a significant amount of cost sharing. Would you please 
provide more information about each of these proposed requirements?
    Answer. To address the need for skilled professionals with superior 
competency in foreign languages critical to U.S. national security, 
such as Arabic, Chinese, Russian, Hindi, Farsi, and others, 
participants in the Advancing America Through Foreign Language 
Partnerships program would be expected to make significant commitments. 
We would expect that institutions of higher education applying for 
grants would be able to identify each local educational agency partner 
and describe each partner's responsibilities (including how they would 
be involved in planning and implementing program curriculum, what 
resources they would provide, and how they would ensure continuity of 
student progress from elementary school to the postsecondary level). 
Participating institutions of higher education would be expected to 
work with partner school districts to develop and implement an 
articulated curriculum with consistent pedagogical philosophy and goals 
throughout all educational levels of the program. To ensure long-term 
success of the project, we would expect applicants to be able to 
describe in their applications how they would support and continue the 
program after the grant has expired, including how they would seek 
support from other sources, such as State and local government, 
foundations, and the private sector. We would also expect grantees to 
provide a non-Federal contribution, in cash or in kind, that would help 
carry out the activities supported by the grant.

                     STATEWIDE DATA SYSTEMS PROGRAM

    Question. The fiscal year 2007 budget requests $54.6 million for 
the Statewide Data Systems program, an increase of $30 million over the 
fiscal year 2006 amount. Budget documents supporting this request 
indicate that 14 States are receiving funds from this program, although 
all States need assistance to develop or refine and fully implement 
systems that allow them to track the progress of individual students 
statewide. Budget documents also state that the requested increase for 
fiscal year 2007 would focus on the issue accelerating the capacity of 
high schools to report and use accurate high school graduation and 
dropout data. How are States utilizing funds from fiscal year 2005 and 
fiscal year 2006?
    Answer. The Statewide Longitudinal Data Systems (SLDS) grant 
program is supporting State educational agencies in designing, 
developing, implementing, and using longitudinal individual student 
data and linking the student data to other contextual and management 
data, such as program, staffing, facilities, financial, early 
childhood, or post-secondary data. The resulting data systems will 
allow States to evaluate learning of all students and track the 
effectiveness of schools, programs, or interventions. Under the grant 
program, States are required to provide data and meaningful analyses 
back to local stakeholders, including teachers, principals, and 
districts. States are also required to develop ongoing evaluation 
procedures to ensure that the data collected are: (1) of high quality, 
(2) responsive to local information needs, and (3) useful for improving 
instruction and student learning.
    States receiving SLDS grant money are required to incorporate data 
from kindergarten to 12th grade in their data systems. Most have also 
proposed to incorporate preschool and even birth-to-preschool data. 
Similarly, most grantees propose to incorporate postsecondary data in 
their systems, spanning prekindergarten-16 and even prekindergarten-20. 
Some States will also link their data to those from non-education 
agencies, such health or labor. These longitudinal student data, 
especially with links to rich contextual data, will for the first time 
allow States and districts to reliably link student outcomes to 
different variables, including curricula, educational environment, 
funding, socioeconomic background, and other factors that affect 
student learning.

                  STATEWIDE LONGITUDINAL DATA SYSTEMS

    Question. How does this proposed priority fit with the basic needs 
of States for developing longitudinal data systems?
    Answer. Statewide longitudinal data systems (SLDS) grants enable 
States to have more informative and reliable data on what is happening 
and what works in high schools, including the ability to evaluate and 
track how students' pre-high school experience affects how well they do 
in high school. These funds also enable States to understand how what 
happens in high school affects students' success in postsecondary 
education and/or employment. Grant funds support data system 
development and enhancements that enable States to conduct a wide range 
of rigorous longitudinal analyses, including computations of a standard 
four-year adjusted cohort graduation rate, as adopted by the National 
Governors Association (NGA). Most of the first cohort of grantee States 
have not collected and compiled these data before. Some States in the 
first cohort of grants can currently compute the NGA graduation rate, 
but these States still depend upon their grant funding to ensure the 
quality of their data collection.
    The requested increase in funding for this program will enable more 
States that do not currently have this capacity to collect data 
necessary for the computation of accurate high school graduation and 
dropout rates necessary data on high school. For States that already 
collect these data, the requested funding will enable them to connect 
all relevant data in one longitudinal data system with better and more 
efficient verification of data over time and across different 
educational and other data systems. In these States, the SLDS grant 
will result in better data faster.

              NATIONAL ASSESSMENT OF EDUCATIONAL PROGRESS

    Question. The budget requests an additional $4 million to allow the 
Department to begin work on essential activities for implementing in 
2009 State-level assessments at the 12th grade level. What activities 
will be funded by this requested increase?
    Answer. The funds requested for fiscal year 2007 would be used to 
conduct validation studies to ensure that the assessment has predictive 
validity and is an appropriate measure of readiness for work, 
postsecondary education, or military service. The funds would also be 
used for the development and pilot testing of new mathematics and 
reading frameworks.

        12TH GRADE NAEP INITIATIVE--READING AND MATH ASSESSMENTS

    Question. What is the total cost of the 12th grade NAEP initiative, 
and what is the range of options being considered for implementing this 
new policy?
    Answer. Assuming that State participation is mandatory, the 
estimated total cost of the 12th grade State-level assessments in 
Reading and Math for 2009 would be $45 million above the current NAEP 
appropriation.
    The following chart presents estimated costs for an assessment in 
the 50 States, the District of Columbia, and Puerto Rico; as well as 
for a non-mandated assessment, with 45 States volunteering to 
participate; and for a pilot State assessment, with 10 States selected 
to participate. Once the development and phase-in of the 12th grade 
State-level assessments are complete, we estimate that the annual cost, 
beginning in 2010, of conducting State-level assessments in Reading and 
Mathematics would be $22.5 million for the mandatory scenario and $20.5 
million for the voluntary scenario.

                                    [Estimated cost, in millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                  12th Grade State-Level Reading and Math Assessments
                                      --------------------------------------------------------------------------
                 Year                       Mandatory (52            Voluntary (45              Pilot (10
                                            jurisdictions)           jurisdictions)           jurisdictions)
----------------------------------------------------------------------------------------------------------------
2007.................................                      4.0                      4.0                      4.0
2008.................................                     18.5                     18.5                      4.0
2009.................................                     22.5                     18.5                      3.6
                                      --------------------------------------------------------------------------
      Total..........................                     45.0                     41.0                     11.6
----------------------------------------------------------------------------------------------------------------

                 OFFICE OF COMMUNICATIONS AND OUTREACH

    Question. Budget documents supporting your fiscal year 2007 budget 
request indicate that staffing for communications and outreach will 
change from 14 FTE in 2005 to 140 in fiscal year 2006. Will you explain 
the need for 140 FTE's in this office, instead of utilizing these staff 
in grants monitoring and other program administration capacities?
    Answer. Staffing for communications and outreach did not increase 
from 14 to 140. The reason there appears to be an increase is that we 
took staff from other areas and consolidated them under a new 
centralized communications office. In an effort to better coordinate 
the communication functions of the Department to ensure clear, 
consistent communications, a new Office of Communications and Outreach 
(OCO) was created. It now includes the former Office of Public Affairs 
(OPA), most of the functions of the former Office of Intergovernmental 
and Interagency Affairs (OIIA) and the function of internal 
communications. The new Office of Communications and Outreach 
encompasses speechwriting, public affairs, web site, publications, 
event services, external affairs and the Secretary's 10 regional 
offices. The Office of Communications and Outreach is responsible for 
creating and distributing appropriate education materials to inform the 
work and decision-making of educators, policymakers, government 
officials, parents and students.

       DEPARTMENT EXPENDITURES FOR PUBLIC RELATIONS AND OUTREACH

    Question. How much did your Department spend on public relations 
and outreach in fiscal year 2005?
    Answer. In fiscal year 2005, the Department spent $1,132,246 on 
public relations and outreach, in procurement of items and services 
such as speeches and editing for senior staff, logistical outreach 
event support, webcasting, and the monthly ``Education News Parents Can 
Use'' satellite broadcasts.
    Question. How much do you plan to spend in fiscal year 2006 and 
fiscal year 2007, and what are the primary outcomes intended to be 
achieved by these expenditures?
    Answer. The Department plans on spending $1,025,000 in fiscal year 
2006 and $1,100,000 in fiscal year 2007 on public relations and 
outreach events which are designed to inform members of the public 
about No Child Left Behind and other Department programs, the monthly 
``Education News Parents Can Use'' satellite broadcast, and technical 
support for webcasting.
    Each ``Education News Parents Can Us'' broadcast explains U.S. 
Department of Education programs to parents using practical, plain-
language discussions of topics such as ensuring safe and drug free 
schools, teaching reading, serving students with disabilities, and 
using new education technology. Each broadcast offers this information 
in a format that features short segments, including one-on-one 
interviews, ``how-to'' demonstrations, and brief conversations with 
parents, educators, education experts, and community, business and 
religious leaders.
    Technical and production support is needed for the creation of high 
quality, live, or previously videotaped multi-media programs that can 
be broadcast over the Internet. These productions are for the purpose 
of raising the general public's awareness of and encouraging 
participation in programs associated with ED's education reform 
initiatives.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                       NATIVE HAWAIIAN EDUCATION

    Question. First and foremost, I'd like to express my sincere 
appreciation for the continued funding of Native Hawaiian Education. 
This funding facilitated uninterrupted curricula development, teacher 
training and recruitment programs as well as scholarship offerings. 
Programs such as these allowed many young Hawaiians' the opportunity to 
fully realize their dreams. Through continued support of Native 
Hawaiian Vocational Education, countless individuals can now 
successfully enter, compete and advance in the ever-changing and 
competitive technological workplace.
    I would also like to extend my personal thanks to your Department 
administrators who have traveled to Hawaii to meet our local program 
coordinators and provide technical assistance to our remote 
communities. No doubt, your staff has seen first hand the tremendous 
impact and success these funded programs have had on the people of 
Hawaii.
    Madam Secretary, what are the indicators or measures your 
Department uses to manage existing competitive grantees under the 
Native Hawaiian Education Act?
    Answer. The Department has established three performance measures 
for the Native Hawaiian Education program authorized under Title VII of 
the ESEA. The measures are:
  --The percentage of teachers involved with professional development 
        activities that address the unique educational needs of program 
        participants.
  --The percentage of Native Hawaiian children participating in early 
        education programs who improve on measures of school readiness 
        and literacy.
  --The percentage of students participating in the program who meet or 
        exceed proficiency standards in mathematics, science, or 
        reading.
    The Department collects data on these measures through the annual 
performance reports submitted by grantees.
    Question. Please also describe the process by which these 
indicators were selected.
    Answer. The development of the performance indicators for the 
Native Hawaiian Education program was based on an analysis of the 
program's purpose, priorities and authorized activities, and how those 
align with the overall priorities and purpose of the No Child Left 
Behind Act. As the program authorizes a wide number of project 
activities, we also had to narrow somewhat the areas for performance 
measurement for the program, in order to minimize the burden of data 
collection and reporting. Since we were unable to arrive at one 
performance indicator that would be appropriate for all projects 
possible or allowed under the program, we conducted an analysis of 
grantee activities and goals. The analysis showed that most grantees 
are implementing projects around a small number of areas (early 
childhood, teacher professional development, and math and science 
education) and, thus, we developed indicators to track program 
performance in those areas.

                          WOMEN IN TECHNOLOGY

    Question. The Women in Technology (WIT) program originated in Maui 
5 years ago as a workforce development project initially funded through 
a grant from the U.S. Department of Labor. A core mission component of 
the program was to partner with educators and industry to create a 
pipeline from education to employment in science, technology, 
engineering and math. This concept was first introduced in our local 
middle and high schools, to increase the confidence and interest of 
under represented populations in math and science studies and expose 
them to educational and professional opportunities in high-tech 
professions. This was accomplished at no cost to the students.
    Elementary school is a critical time to begin outreach efforts to 
attract students into the science, technology, engineering and math 
pipeline. National research indicates that gender identities and 
stereotyping about career roles are set by age seven. One of the goals 
of Women in Technology includes training elementary school teachers in 
``inquiry-based learning'' methods. In this method, teachers learn how 
to harness the natural inquisitive nature of their students and nurture 
it into scientific questions/hypothesis and self-directed activities to 
prove/disprove the students' questions. The inquiry-based activities 
are integrated into the teaching curriculum and align with grade level 
and standards. This method of teaching is well suited to children of 
both genders and stimulates all styles of learning. A pilot program, 
recently launched in Maui, included a professional development workshop 
for one dozen elementary teachers.
    Madam Secretary, Women In Technology is a critically important 
program to securing a more prosperous future for many young Hawaiians. 
So strong is my belief in the value of this program, that in years 
past, I sought funding for it via my earmarks. As such are no longer 
available, will the Department of Education provide funds for the 
expansion of science, technology, engineering and math ``inquiry-based 
learning'' curriculum and training to all elementary school teachers 
throughout the State of Hawaii?
    Answer. The agency operating the Women in Technology (WIT) program 
may pursue discretionary funding opportunities under a number of 
Department of Education programs that support activities such as the 
ones you describe. WIT may apply, for example, for funding under the 
Native Hawaiian Education program, which supports innovative projects 
to provide supplemental services that address the educational needs of 
Native Hawaiian children and adults. Authorized activities under that 
program include development and implementation of professional 
development programs to prepare teachers to address the unique needs of 
Native Hawaiian students.
    WIT may also be eligible for funding under the Mathematics and 
Science Partnerships program. Funds for the program are distributed to 
States based on a formula, and each State then administers a grant 
competition for the funds. The program supports State and local efforts 
to improve students' academic achievement in mathematics and science by 
promoting strong teaching skills for elementary and secondary school 
teachers, including integrating teaching methods based on 
scientifically based research and technology into the curriculum. 
Grantees may also use program funds to develop more rigorous 
mathematics and science curricula that are aligned with challenging 
State and local content standards; establish distance learning programs 
for mathematics and science teachers; and recruit individuals with 
mathematics, science, and engineering majors into the teaching 
profession through the use of signing and performance incentives, 
stipends, and scholarships. Professional development can include summer 
workshops, or institutes and programs, that bring mathematics and 
science teachers into contact with working scientists, mathematicians, 
and engineers in order to expand teachers' subject-matter knowledge. 
WIT administrators should contact the Hawaii Department of Education 
for information on applying for this program.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

                     SPECIAL EDUCATION FULL FUNDING

    Question. Many of us here have worked hard every year to increase 
funding for Special Education. Year after year, school districts in 
Wisconsin tell me that this is one of their top concerns. But this 
year's budget is especially worrisome. It proposes to cut the Federal 
share of IDEA costs from 18 percent to 17 percent--that is less than 
half of the 40 percent ``full funding'' level that Congress committed 
to paying when IDEA was first adopted 31 years ago. This deliberate 
step backward begs the question: does this Administration plan to ever 
fully fund IDEA?
    Answer. Under the President's leadership, funding for the Grants to 
States program has increased by 67 percent since 2001. The President's 
2007 request for the Special Education--Grants to States program of 
$10.7 billion, which includes an increase of $100 million, would 
provide about 17 percent of the national average per pupil expenditure 
(APPE) for 6.9 million children with disabilities receiving special 
education, compared to about 14 percent of the APPE in 2001. No 
Administration has come close to requesting 40 percent of APPE, but 
this Administration has proposed record-high increases in funding for 
the program and has achieved record-high levels of the Federal 
contribution.

                   EARLY CHILDHOOD EDUCATION FUNDING

    Question. While I support the President's proposals to increase 
resources to support math and science education at the high school 
level, I am concerned about the decrease in funding for programs that 
support early childhood education. Research shows that 80 percent of 
brain development takes place during the first 3 years of a child's 
life. In light of this research, please explain the Administration's 
rationale for funneling resources away from programs that support our 
youngest learners--like the Foundations for Learning and Even Start 
programs--and putting those funds into our high school age programs.
    Answer. The Department remains dedicated to the goal of promoting 
cognitive development for all children, and the President's budget 
request reflects a strong commitment to programs that have a proven 
record of success in serving our Nation's youngest citizens. Neither 
Even Start nor Foundations for Learning has a track record of 
demonstrated effectiveness. While some local Even Start programs are 
successful at supporting the development of children's early academic 
skills, the program's overall reliance on the family literacy model has 
not been shown to be effective. In addition, the Foundations for 
Learning program is duplicative of other programs that serve very young 
children and its size precludes any large impact on the populations to 
which it is targeted. Other programs, such as Early Reading First and 
the Early Childhood Educator Professional Development program, focus on 
proven methods of addressing the cognitive development and school 
readiness needs of young children

              PERKINS LOANS AND OTHER STUDENT AID PROGRAMS

    Question. Not only does this budget cut Pell Grants, but it also 
calls for the elimination of the Federal Perkins loan program. This 
academic year, the University of Madison-Wisconsin served 5,202 
students with $13.2 million in Federal Perkins Loans. These loans 
helped students cover the gap between other financial aid and the 
actual cost of attendance. They are also a good option for low-income 
students because they are not dependent on credit history. Secretary 
Spellings, if Congress were to agree to the President's recommendation 
and eliminate Perkins loans, what do you suggest these students do to 
pay for higher education?
    Answer. First, to clarify, the President's Budget does not cut Pell 
Grants; current estimates indicate every eligible student would receive 
his or her full award under our proposal. The reduction in budget 
authority compared with fiscal year 2006 reflects the new scoring rule 
under which an estimated $273 million in unused funds from fiscal year 
2006 can be used to reduce the need for new appropriations, as well as 
a slight reduction in the estimated cost of the Pell Grant program.
    More broadly, even with the Perkins Loan proposal, student aid 
would increase under the President's Budget by more than $4.6 billion 
in fiscal year 2007 over the previous year, including $790 million in 
new need-based Academic Competitiveness and SMART Grants. In addition, 
student loans under the Federal Family Education Loan and Direct Loan 
programs will be a better bargain for borrowers due to lower interest 
rates and reduced origination fees.

           ELEMENTARY AND SECONDARY SCHOOL COUNSELING PROGRAM

    Question. School counselors play a vital role in the lives of 
American youths by providing guidance on issues both academic and 
personal. During times of war and the ongoing fear of terrorism, the 
need for effective school counseling is clearer than ever. In addition, 
counselors continue to guide students in career, academic and social 
development. That's why I am very concerned that the President's budget 
again eliminates funding for the School Counseling Program. In 
Wisconsin, each public school counselor oversees 461 students--a 
caseload that already leaves many students underserved.
    School counselors play an important role in helping students meet 
the goals of No Child Left Behind. Why would the Administration cut a 
program that is helping to make its signature education policy work?
    Answer. The budget request to eliminate funding for the Elementary 
and Secondary School Counseling program is part of an overall budget 
strategy to discontinue programs that duplicate other programs that may 
be carried out with flexible State formula grant funds, or that involve 
activities that are better or more appropriately supported through 
State, local, or private resources. Specifically, the 2007 budget 
proposes termination of 42 programs in order to free up almost $3.5 
billion (based on 2006 levels) for reallocation to higher-priority 
activities within the Department. These higher-priority activities 
include the Administration's $1.5 billion High School Reform 
Initiative. Under this Initiative, local educational agencies will be 
able to include student counseling services as part of the 
comprehensive strategies they adopt to raise high school achievement 
and eliminate gaps in achievement among subgroups of students.
    In addition, if school districts choose to do so, they may support 
counseling programs with the funds they receive under the State Grants 
for Innovative Programs authority, which allows them to implement 
programs that best meet their needs. Furthermore, the Elementary and 
Secondary Education Act (ESEA) provides school districts with 
additional flexibility to meet their own priorities by consolidating a 
sizable portion of their Federal funds from their allocations under 
certain State formula grant programs and using those funds under any 
other of these authorized programs. A school district that seeks to 
implement a school counseling program in some or all of its schools may 
use funds from those programs to do so.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                 ACADEMIC COMPETITIVENESS/SMART GRANTS

    Question. The fiscal year 2006 Budget Reconciliation bill created 
Academic Competitiveness grants and the National Science and 
Mathematics Access to Retain Talent (SMART) grants. To receive the 
Academic Competitiveness grants, students must have completed a 
rigorous secondary-school program of study. While I agree that we need 
to be doing all we can prepare students for a job in a global economy, 
a student's luck in where they attend high school shouldn't determine 
whether or not the Federal Government helps them attend college. The 
Congressional Budget Office has estimated that only 9.9 percent of Pell 
eligible students will be able to take advantage of the Academic 
Competitiveness and SMART grants in 2007.
    The maximum Pell grant has not increased for years despite tuition 
rising at our Nation's public colleges rising by over 7 percent last 
year. If the $850 million that these grants cost in fiscal year 2007 
were spent on Pell grants, students would receive an additional $200 in 
aid.
    How do you anticipate judging what constitutes a rigorous 
secondary-school curriculum?
    Answer. The Department of Education is working with all States to 
help them identify high school programs of study they can submit to the 
Secretary of Education for recognition as rigorous secondary programs 
of study. In addition, there will be alternative eligibility provisions 
for students from States that have not yet submitted designated 
programs to the Secretary. These State-identified, eligible rigorous 
secondary school programs or acceptable alternatives will soon be 
posted on a Department web site.
    Question. Particularly in such tight budget times, shouldn't we be 
spending our resources on helping all students attend college 
regardless of their circumstance, not benefiting the few who are lucky 
enough to attend the ``right'' high school?
    Answer. Taken together, the Federal student aid programs under the 
President's fiscal year 2007 budget request would provide over $82 
billion to students and families, much of it focused on the neediest 
Americans. Within this larger investment, we believe it is appropriate 
to target a portion of need-based aid--Academic Competitiveness/SMART 
Grant recipients must be eligible for a Pell Grant--to encourage the 
type of rigorous high school study and challenging college coursework 
that is linked to success both for individuals and, ultimately, for our 
Nation.

                            TITLE IX REPORT

    Question. On March 17, 2005, the Department of Education released 
new guidance on the interest prong of the three-part test which schools 
use to show compliance with Title IX in athletics. As you are aware, I 
have grave concerns about the new guidance because I believe it sets a 
new low bar for compliance with a Federal civil rights law. Schools 
would now be allowed to use an email survey to show compliance with 
Title IX. Further, the school would only have to send that survey to 
women and a lack of response could be determined as lack of interest in 
sports. Surveys have been used in the past to show compliance with 
Title IX, but not as a sole means and other factors such as emerging 
sports had to be taken into consideration.
    Because of concern over this new guidance, a bipartisan group of 
Senators on this subcommittee asked for a report on the guidance and 
use of surveys due March 17. What is the status of the requested 
report?
    Answer. The report in response to guidance and the use of surveys 
for Title IX was submitted to the Committee on March 17, 2006.

                     TITLE IX TECHNICAL ASSISTANCE

    Question. Clearly, there is a lot of confusion on behalf of schools 
about this new guidance. What is the Department doing regarding 
technical assistance on the guidance?
    Answer. The Office for Civil Rights (OCR) regularly provides 
technical assistance on a variety of issues to interested parties, 
including elementary and secondary schools and colleges and 
universities. Assistance is an important method to help educational 
institutions achieve voluntary compliance with the civil rights laws 
and assist in preventing civil rights violations by educating schools 
about their responsibilities. OCR provides guidance through a variety 
of methods, including responses to thousands of requests for 
individualized technical assistance, via phone, email, or mail, each 
year from individuals, recipients, and groups representing recipients 
and beneficiaries. Our technical assistance also includes on-site 
consultations, conferences, training, community outreach, publishing 
and disseminating materials, through the Department's website and 
direct mailings, and issuing guidance.
    With respect to Title IX of the Education Amendments of 1972 (Title 
IX), the Department issued the Additional Clarification of 
Intercollegiate Athletics Policy (Additional Clarification) to clarify 
one method schools may choose to use to assess athletic interests and 
to provide a practical tool they may choose to use to conduct that 
assessment.
    To further assist schools, OCR has been and continues to actively 
seek out opportunities to provide technical assistance on a continuous 
basis. In the year since the Additional Clarification was issued, OCR 
has provided technical assistance on the Additional Clarification to 
more than a thousand coaches, athletic directors, Title IX coordinators 
and legal advisors, in addition to regularly providing individualized 
technical assistance. These presentations have included secondary 
schools, 2- and 4-year colleges and universities, and conferences 
sponsored by umbrella organizations responsible for developing and 
implementing the governing rules and procedures for national and 
regional athletics at the secondary, junior college, and 4-year college 
levels. We will continue to proactively seek out opportunities to 
educate recipients, educational and athletic organizations, 
administrators, parents and students regarding nondiscriminatory 
implementation of Title IX and the Additional Clarification.

              AMERICA'S OPPORTUNITY SCHOLARSHIPS FOR KIDS

    Question. The President's budget again proposes school vouchers 
through the America's Opportunity Scholarships for Kids program. The 
President's education budget also eliminates 42 programs. We often hear 
that the programs are proposed for elimination because they are 
ineffective. However, there is no evidence that private school vouchers 
do anything to improve achievement for any students. Further, we still 
have yet to see any real evaluation of achievement under the D.C. 
voucher program.
    In such a tight budget, how does the Administration justify 
spending $100 million on a program that has yet to be found effective?
    Answer. To offer the opportunity of a high-quality education to 
more students who attend schools in restructuring around the country, 
the Department proposes the creation of a national school choice 
program that gives parents the choice to send their children to any 
public or private schools that they believe would better serve their 
student's needs. Though it is too early to know the potential effects 
on academic achievement of the D.C. School Choice Incentive Program, we 
do know that the program has generated significant support among 
parents of students in low-performing schools in Washington, DC. The 
America's Opportunity Scholarships program would extend that option to 
parents whose children attend low-performing schools across the Nation. 
In addition, several research studies, such as ``Private School 
Vouchers and Student Achievement: An Evaluation of the Milwaukee 
Parental Choice Program'' by Cecilia Rouse, and Jay Greene's ``The 
Effect of School Choice: an Evaluation of the Charlotte Children's 
Scholarship Fund,'' suggest that participation in the private school 
choice programs leads to improvements in student achievement.

        IMPACT OF MEDICAID CHANGE ON CHILDREN WITH DISABILITIES

    Question. The Department of Health and Human Services reflects a 
change in how Medicaid is dealt with at schools. While I understand 
this change is proposed in the HHS budget and not the Department of 
Education, the impact will be felt by students and schools. The HHS 
budget says that certain costs associated with services provided to 
special education students who are also on Medicaid will no longer be 
reimbursed to the schools through Medicaid. The estimated savings to 
HHS is over $600 million for fiscal year 2007 and the 10-year savings 
is over $9 billion. The President's budget proposes only a $100 million 
increase to IDEA. While we will certainly fight for increasing funding 
for IDEA and other education programs, given these tight budget times, 
I have a feeling IDEA won't receive $9 billion in the next 10 years.
    I am concerned that students will feel the impact of this change. 
The Federal Government has yet to live up to the promise of funding 40 
percent of the cost of educating a special education student and 
schools will not be able to absorb the costs associated with this 
change. Students will be told to get such services outside of school 
hours.
    How do you propose ensuring that students get all the necessary 
service they receive now if this change happens at HHS?
    Answer. The President's 2007 Budget includes a proposal that would 
prohibit Federal Medicaid reimbursement for Medicaid administrative 
activities performed in schools. It additionally provides that Federal 
Medicaid funds will no longer be available to pay for transportation 
required to be provided to children with disabilities by the 
Individuals with Disabilities Education Act. HHS has had long-standing 
concerns about improper billing by school districts for administrative 
costs and transportation services. Both the HHS Inspector General and 
the Government Accountability Office have identified these categories 
of expenses as susceptible to fraud and abuse. Schools would continue 
to be reimbursed for direct Medicaid services identified in an 
Individualized Education Program (IEP) or Individualized Family Service 
Plan (IFSP) and provided to Medicaid-eligible children, such as 
physical therapy, that are important to meeting the needs of Medicaid-
eligible students with disabilities.
    A shift in funding responsibility for administrative and 
transportation costs associated with Medicaid eligible children with 
disabilities should not affect services for these children. State and 
local governments are responsible for ensuring that needed services are 
provided for all children with disabilities, regardless of whether they 
are Medicaid eligible. The change in policy would treat Medicaid 
eligible children with disabilities the same as other children with 
disabilities with regard to administrative and transportation costs. 
The Department of Education and HHS intend to work together to ensure 
that implementation of this change in policy is done in an orderly and 
sensible fashion.

                21ST CENTURY COMMUNITY LEARNING CENTERS

    Question. The President's budget would freeze funding for the 21st 
Century Community Learning Centers Program for the fifth year in a row. 
Furthermore, NCLB's fiscal year 2007 authorization level for the 
program is $2.5 billion. This is a program that enjoys extraordinary 
public and bipartisan congressional support. All of us hear from 
constituents who want and need more funding to develop more afterschool 
programs in their communities. These programs help working families, 
provide vital additional academic support to students and provide safe, 
supervised environments for kids afterschool--priorities that appear to 
match many of the President's major goals.
    With such diverse, bipartisan support, why has the Department 
continued to propose only $981 million for the program? That gap leaves 
the States, communities, families and students--as many as 1.4 million 
children--behind and more than 25 States unable to offer new grant 
opportunities in fiscal year 2005.
    Answer. The program does, indeed, enjoy bipartisan support in 
Congress, and we do receive many letters from Members asking us to 
increase funding. However, in a tight budget environment, we need to 
target the limited available funding on programs that show evidence of 
success or that have a strong potential to fill major unmet needs. The 
results of the only national evaluation of 21st Century Community 
Learning Centers were not very positive and did not present a case for 
increasing the funding. However, the Department's Institute of 
Education Sciences has launched a study of specific math and reading 
interventions that will determine after-school programs' potential 
impact on academic achievement. We will review the results of that 
study, and also the program performance results that States submit, in 
determining whether to request increases in future years.

                            CIVIC EDUCATION

    Question. As you know, we face a crisis today with young people who 
are disenchanted with politics; they are apathetic and cynical about 
Government and its institutions. I was disappointed to discover the 
elimination of the Education for Democracy Act in the President's 
budget request. This program funds domestic civic and international 
civic and economic education programs. The Civic Education program is 
successful in helping American students understand and appreciate 
fundamental values and principles of our Government.
    Can you comment on why a program that is consistent with the 
Administration's desire for American students to have a basic 
understanding and appreciation of the workings of our Nation's 
Government and politics along with its values and principles was 
eliminated in the President's budget?
    Answer. The Administration agrees that there is a critical need for 
education programs that effectively promote basic understanding and 
appreciation of the workings of our Nation's Government and politics, 
along with it values and principles. However, we question the efficacy 
and wisdom of statutorily mandating that 100 percent of funds available 
for domestic civic education activities must go to a single 
organization, particularly when so little is known about the efficacy 
of civic education interventions developed and supported by this 
organization. The Administration believes that a more effective 
approach to addressing the issue is to invest in programs that make 
competitive awards to local schools districts and other eligible 
entities to help create safe learning environments where students 
understand, care about, and act on core ethical and citizenship values, 
such as Character Education (which would receive $24.2 million under 
the President's request) and Safe Schools/Healthy Students (which would 
receive $79.2 million under the President's request).
    While the Civic Education program, as currently authorized, 
supports some worthwhile activities, there are no reliable measures of 
overall effectiveness of interventions supported using program funds. 
Studies and evaluations conducted by the Center for Civic Education 
provide limited information on program performance, but none are 
sufficiently rigorous to yield reliable information on the overall 
effectiveness or impact(s) of the various interventions supported 
through this program.
    The administration does not believe additional funding is necessary 
for the implementation of activities currently supported by the Center 
for Civic Education--an established non-profit organization with a 
broad network of program participants, alumni, volunteers, and 
financial supporters at the local, State, and national levels. The 
Center also has a long history of success raising additional support 
through such vehicles as selling program-related curricular materials, 
training and workshops, partnering with non-profit groups on core 
activities, lobbying, and seeking support from foundations.

                          SUBCOMMITTEE RECESS

    Senator Specter. Thank you very much. The subcommittee will 
stand in recess to reconvene at 10 a.m., Wednesday, May 3, in 
room SD-226. At that time we will hear testimony from the 
Honorable Michael Leavitt, Secretary, Department of Health and 
Human Services.
    [Whereupon, at 12 noon, Wednesday, March 1, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 3.]

</pre></body></html>
